<html>
<title> - THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
            THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 1999

                               __________

                           Serial No. 106-121

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-651 CC                   WASHINGTON : 2000



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
   Bonnie Heald, Director of Communications/Professional Staff Member
                          Chip Ahlswede, Clerk
           David McMillen, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 20, 1999.................................     1
Statement of:
    Carlin, John, Archivist of the U.S. National Archives and 
      Records Administration, accompanied by, Lewis J. Bellardo, 
      Deputy Archivist and Chief of Staff; and Adrienne C. 
      Thomas, Assistant Archivist for Administrative Services....     5
    Stevens, L. Nye, Director, Federal Management and Workforce 
      Issues, U.S. General Accounting Office; Page Putnam Miller, 
      executive director, National Committee for the Promotion of 
      History, representing the Organization of American 
      Historians; Stanley Katz, vice president for research, 
      American Historical Association; and H. Thomas Hickerson, 
      associate university librarian for information technology, 
      Cornell University, and president, Society of American 
      Archivists.................................................    88
Letters, statements, et cetera, submitted for the record by:
    Bellardo, Lewis J., Deputy Archivist and Chief of Staff, 
      information concerning records of party conferences........    52
    Carlin, John, Archivist of the U.S. National Archives and 
      Records Administration:
        Information concerning grants awarded....................    64
        Prepared statement of....................................     9
    Hickerson, H. Thomas, associate university librarian for 
      information technology, Cornell University, and president, 
      Society of American Archivists, prepared statement of......   112
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Katz, Stanley, vice president for research, American 
      Historical Association, prepared statement of..............   107
    Miller, Page Putnam, executive director, National Committee 
      for the Promotion of History, representing the Organization 
      of American Historians, prepared statement of..............   102
    Stevens, L. Nye, Director, Federal Management and Workforce 
      Issues, U.S. General Accounting Office, prepared statement 
      of.........................................................    90
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................   130



            THE NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                              ----------                              


                      WEDNESDAY, OCTOBER 20, 1999

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, the Honorable Stephen 
Horn (chairman of the subcommittee) presiding.
    Present: Representatives Horn and Turner.
    Staff present: Matthew Ebert, policy advisor; Bonnie Heald, 
director of communications and professional staff member; Chip 
Ahlswede, clerk; P.J. Caceres and Deborah Oppenheim, interns; 
Trey Henderson, minority counsel; David McMillen, minority 
professional staff member; and Jean Gosa, minority staff 
assistant.
    Mr. Horn. This is the Committee on Government Reform's 
first oversight hearing on the National Archives and Records 
Administration since the Honorable John Carlin became the 
Nation's Archivist in 1995. We welcome Governor Carlin, former 
Governor of Kansas. He has done a great job as the Archivist 
and we look forward to having some of that put into the record.
    The National Archives and Record Administration is an 
independent Federal agency charged with preserving the Nation's 
history through its oversight and management of Federal 
records. The agency has 33 facilities that hold more than 4 
billion pieces of paper generated by all branches of the 
Federal Government from 1789 up.
    Today we will examine one of the agency's essential 
responsibilities: how it determines which Government records 
should be preserved and which records may be destroyed. I 
shudder at the last remark.
    The National Archives assists other Federal agencies in 
maintaining and disposing of Government documents--electronic 
and paper. The agency is attempting to streamline and revise 
its guidelines under an 18-month business process reengineering 
plan and plans to survey Government agencies on their 
electronic records management programs. The subcommittee will 
examine the agency's progress on this plan today.
    Since President Clinton's 1995 order to declassify historic 
documents which are 25 years or older, the Federal Government 
has processed 593 million pages for declassification. The 
subcommittee will examine how the National Archives, as a key 
player, is implementing this process in meeting its 
declassification deadlines.
    In addition, we want to examine the viability of the 
National Archives' revolving fund. The fund, which was 
established last year, was set up as a mechanism for Federal 
departments and agencies to reimburse the National Archives for 
the expenses it incurs for storage of temporary records.
    We welcome our witnesses today. We look forward to each of 
their testimonies.
    We will proceed and yield to Mr. Turner when he comes in 
shortly.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.001
    
    [GRAPHIC] [TIFF OMITTED] T4651.002
    
    Mr. Horn. As panel one, we have Governor John Carlin, 
Archivist of the United States, National Archives and Records 
Administration, who is accompanied by Mr. Lewis Bellardo, 
Deputy Archivist and Chief of Staff, and Ms. Adrienne C. 
Thomas, Assistant Archivist for Administrative Services.
    I think you both know the routine here. We swear in all 
witnesses. Please stand and raise your right hands. If there 
are any staff behind you that will be giving you suggestions, 
please have them stand, too.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that the three witnesses and 
one staff member affirmed the oath.
    Governor, we are delighted to have you here. Please take 
any time you want, but we would obviously like you to summarize 
your fine statement.
    I might add that the statements automatically go in the 
record when we call on each witness. You do not have to read 
it, but we would like to have you summarize it. Then we can 
spend more time on dialog.

   STATEMENT OF JOHN CARLIN, ARCHIVIST OF THE U.S. NATIONAL 
 ARCHIVES AND RECORDS ADMINISTRATION, ACCOMPANIED BY, LEWIS J. 
BELLARDO, DEPUTY ARCHIVIST AND CHIEF OF STAFF; AND ADRIENNE C. 
    THOMAS, ASSISTANT ARCHIVIST FOR ADMINISTRATIVE SERVICES

    Mr. Carlin. Mr. Chairman and staff, I am John Carlin, 
Archivist of the United States.
    As the Chair has pointed out, I administer the National 
Archives and Records Administration. We are certainly grateful 
for this opportunity and welcome the chance to work with this 
very important oversight committee. I thank you for placing my 
full text in the record. I will summarize. I would like to 
touch on some of the things that might be of particular 
interest to you and then of course answer questions.
    Because our strategic plan puts our customers first in our 
thinking, I want to first make it clear who they are and what 
we provide them.
    Our mission, as defined in our strategic plan, is to ensure 
ready access to essential evidence documenting the rights and 
entitlements of citizens, the actions for which Federal 
officials are responsible, and the national experience. As you 
stated, we have 34 facilities across the country. They include 
regional archives, records services centers, and 10 
Presidential libraries, where we preserve and provide access to 
literally millions of records--billions if you count individual 
pages, photographs, and recordings--ranging from our 18th 
century records to 100,000 late-20th century electronic files.
    Literally thousands of people, including genealogists, 
lawyers, historians, veterans, newspaper and television 
journalists, and government employees, annually do research in 
our archival facilities, and thousands of others write or call 
with inquiries for records or information from our records. 
Approximately 1 million people, many of whom are school 
children, annually view the Charters of Freedom in our 
Washington rotunda, and each year approximately 1.4 million 
people view exhibits in our Presidential libraries. 
Approximately 1.5 million veterans annually request 
documentation from us of their entitlement to benefits.
    People throughout the country this past year made more than 
7 million user visits to our webpages. And the number of 
documents that researchers have pulled up to review from 
electronic editions of the Federal Register, the Code of 
Federal Regulations, and related publications that NARA 
produces now exceeds 100 million annually. In addition, as you 
know, Mr. Chairman, many historians, archivists, and records 
managers across the country are carrying out projects to 
preserve and publish records with the help of grants from the 
National Historical Publications and Records Administration, 
which is part of NARA.
    I am pleased to say that increased support from the 
Congress and the administration for special initiatives over 
the past 3 years is enabling us to serve these customers 
better. As a political scientist, Mr. Chairman, you will be 
glad to know that scholars, among other researchers, are 
grateful to the Congress for making it possible, in the budget 
just passed for fiscal year 2000, for us to hire more 
archivists to assist them in our research rooms, and to provide 
better research room equipment for their use.
    Researchers are grateful to Congress for enabling us to 
continue our progress in building an Archival Research Catalog 
that eventually will provide on-line descriptions of everything 
in our holdings so that their research can start at home. And 
researchers, especially genealogists, are also grateful for 
funds appropriated in our fiscal year 2000 budget to enable us 
to prepare for opening the 1930 census records.
    Providing public access to records, however, is only half 
our job. We are the National Archives and Records 
Administration. We provide guidance to our largest customer, 
the three branches of Government, including the Federal courts 
and more than 300 Federal agencies with thousands of locations 
nationwide and around the world, on documenting their 
activities and managing their records. We also have the 
responsibility to approve how long Federal records are kept in 
order to protect individual rights, hold Government 
accountable, and document the national experience. For the 
Congress and its legislative agencies, we preserve official 
records in our Center for Legislative Archives and provide 
access to them.
    Mr. Chairman, I do not have to tell an oversight committee 
how important it is for Government agencies to be able to 
locate and provide access to records quickly and adequately. 
When they have difficulty doing so, as in some recent cases, 
congressional committees feel frustrated by what, to us, is a 
records management problem. There have been a lot of charges 
and counter-charges about records availability, but I think it 
is true to say that the Congress, the executive branch, and 
NARA itself have not in the past put enough emphasis on the 
need for effective records management in the Government.
    But fortunately that is changing, and we are grateful for 
the support that the Congress and the administration have been 
giving us in recent budgets for records management improvement.
    With that introduction to what we do and for whom, Mr. 
Chairman, I would like now to turn to some specific concerns 
that may be of particular interest to you and your committee.
    As you know, we are all concerned about electronic records. 
They pose an unprecedented challenge because such records are 
vulnerable to erasure, media instability, and technological 
obsolescence, and because they are mushrooming in quantity and 
in multiple formats. But we are making progress toward meeting 
these challenges and averting loss.
    The magnitude of the problem has made us realize that NARA 
does not have, nor will we have, the expertise or the resources 
to meet these challenges on our own. Consistent with our 
strategic plan, we have made partnering with others our key 
strategy, so that our limited resources can be leveraged for 
maximum return.
    For example, we have partnered with the Department of 
Defense to develop a set of baseline requirements for the 
management of electronic records, and we subsequently endorsed 
this baseline as a starting point for agencies that want to 
begin implementing electronic recordkeeping. Also, we have 
formed a partnership with Government records managers and 
information officers, and with private sector consultants, to 
launch an inter-agency Fast Track Guidance Development Project. 
This project will identify ``best practices'' currently 
available to Federal recordkeepers in managing electronic 
records.
    In terms of electronic records preservation and access, we 
also have new hope, thanks to another partnership. Over the 
past quarter-century, NARA has taken into our archives 
approximately 100,000 files of electronic records from the U.S. 
Federal Government as a whole. But we estimate that the 
Treasury Department alone, for example, is now generating 
annually, in e-mail alone, nearly a million files of electronic 
records that we are likely to need to take into our archives.
    So we entered into a partnership to support work at the San 
Diego Supercomputer Center on an automated system to enable us 
to take in large quantities of Government e-mail messages in a 
short time, and the Center has produced a prototype that is 
able to preserve 2 million e-mail messages in 2 days. This 
could be a huge breakthrough.
    In the meantime, we continue to have volumes of paper 
records with which to deal through our records center 
operations for Federal agencies. We maintain a regional network 
of records centers in which we provide storage, retrieval, and 
other services on records that remain in the agencies' legal 
custody. With your support, Mr. Chairman--for which we are 
grateful--we instituted on October 1st a reimbursable program 
in which we offer agencies customer-oriented, fee-supported 
records center services.
    For the first time, all agencies--not just some--will 
reimburse us for all records center services we provide. And as 
part of implementing this program, records storage standards 
were established, which will apply to both NARA and private 
sector or agency facilities.
    We also continue to address needs of archival facilities 
that house the permanently valuable records in our own legal 
custody. Funds appropriated by the Congress are enabling us to 
search for the kind and quantity of space we need to replace 
outmoded and full-up facilities in Anchorage, AK and Atlanta, 
GA. And we plan to renovate our grand old original archives 
building here in Washington--the building that houses, among 
other treasures, the records of Congress.
    We'll upgrade its HVAC system to meet today's archival 
preservation standards, remedy shortcomings in electrical 
distribution and fire safety, meet requirements of the 
Americans with Disabilities Act, and improve public spaces 
generally. Here again, though, we are developing partnerships 
by soliciting private sector contributions to supplement public 
funds for educational aspects of the project.
    The centerpiece of the renovation will be the replacement 
of currently deteriorating cases for the Nation's Charters of 
Freedom--the Declaration of Independence, the U.S. 
Constitution, and the Bill of Rights. They will receive state-
of-the-art reencasement so that they may continue to be safely 
viewed in our rotunda by millions of visitors well into the new 
millennium.
    On that happy note, I conclude my oral testimony. Again, I 
am grateful for support from you, Mr. Chairman, this committee, 
and the Congress. We have far to go to reach the goals in our 
strategic plan, but I am more encouraged today than at any time 
since I became the archivist. I am beginning to see real 
progress toward meeting the electronic era's great challenges 
in providing the services that the people of a democracy need 
to document their entitlements, hold their Government 
accountable, and understand our national historical experience.
    Thank you very much.
    [The prepared statement of Mr. Carlin follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.003
    
    [GRAPHIC] [TIFF OMITTED] T4651.004
    
    [GRAPHIC] [TIFF OMITTED] T4651.005
    
    [GRAPHIC] [TIFF OMITTED] T4651.006
    
    [GRAPHIC] [TIFF OMITTED] T4651.007
    
    [GRAPHIC] [TIFF OMITTED] T4651.008
    
    [GRAPHIC] [TIFF OMITTED] T4651.009
    
    [GRAPHIC] [TIFF OMITTED] T4651.010
    
    [GRAPHIC] [TIFF OMITTED] T4651.011
    
    [GRAPHIC] [TIFF OMITTED] T4651.012
    
    [GRAPHIC] [TIFF OMITTED] T4651.013
    
    [GRAPHIC] [TIFF OMITTED] T4651.014
    
    [GRAPHIC] [TIFF OMITTED] T4651.015
    
    [GRAPHIC] [TIFF OMITTED] T4651.016
    
    [GRAPHIC] [TIFF OMITTED] T4651.017
    
    [GRAPHIC] [TIFF OMITTED] T4651.018
    
    [GRAPHIC] [TIFF OMITTED] T4651.019
    
    [GRAPHIC] [TIFF OMITTED] T4651.020
    
    [GRAPHIC] [TIFF OMITTED] T4651.021
    
    [GRAPHIC] [TIFF OMITTED] T4651.022
    
    [GRAPHIC] [TIFF OMITTED] T4651.023
    
    [GRAPHIC] [TIFF OMITTED] T4651.024
    
    [GRAPHIC] [TIFF OMITTED] T4651.025
    
    [GRAPHIC] [TIFF OMITTED] T4651.026
    
    [GRAPHIC] [TIFF OMITTED] T4651.027
    
    [GRAPHIC] [TIFF OMITTED] T4651.028
    
    [GRAPHIC] [TIFF OMITTED] T4651.029
    
    [GRAPHIC] [TIFF OMITTED] T4651.030
    
    [GRAPHIC] [TIFF OMITTED] T4651.031
    
    [GRAPHIC] [TIFF OMITTED] T4651.032
    
    [GRAPHIC] [TIFF OMITTED] T4651.033
    
    [GRAPHIC] [TIFF OMITTED] T4651.034
    
    [GRAPHIC] [TIFF OMITTED] T4651.035
    
    Mr. Horn. We thank you, Mr. Carlin.
    Do either of your other staff members wish to add anything 
to that?
    Mr. Carlin. Not at this point.
    Mr. Horn. Let me turn first to our ranking member on the 
subcommittee, a very hard-working member from Texas, Mr. 
Turner. I am going to start the questioning with him. We are 
going to alternate between him and myself and anyone else that 
shows up 5 minutes at a time. So we can get a lot of subjects 
out on the table.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Good morning, Governor. Thank you for being here. Thank you 
for the visit we had the other day. I am impressed, Governor, 
with the enthusiasm with which you have undertaken your job. I 
think it has meant a lot to all of us to have you in that 
position.
    There is one issue I wanted to ask you to comment on. I 
know there has been some concern from the Census Bureau about 
the preservation of the original forms. I know the plans, I 
think, are to make only copies or the computer records being 
ones that you archive rather than the original forms.
    Could you tell us a little bit about why that decision has 
been made? What are the pros and cons? I know it is something 
that the Census Bureau has expressed some concern about.
    Mr. Carlin. Historically, this has been the pattern. Only 
up until the 2000 census, the original documents--there was a 
microfilm copy and it was the microfilm copy that was the 
preservation copy, the access copy, the copy by which we 
distributed across the country to all our facilities and made 
available for rent. Once we had the microfilm copied, then the 
original questionnaires were always destroyed. That has been 
the pattern from the very beginning.
    What is new and unique this year is that we are shifting to 
a new medium. For the first time, instead of microfilm, we are 
talking about electronic medium. What is left at issue, in my 
mind, is really two very significant things. One, we have not 
yet scheduled with the Census Bureau those electronic 
documents--the systems, et cetera. The existing schedule for 
the questionnaires that are temporary is in place, but 
communicated with that schedule--if they will be destroyed--is 
that they cannot be destroyed until they have made a copy on an 
appropriate medium. In this case, in the year 2000 it will be 
electronic. We have that work left with the Census Bureau to 
get that scheduling done.
    The second thing I would assure you is that I am not 
signing those schedules until I am confident that this new 
first-time use of electronic systems, electronic technology, 
that we in fact have the information so that we can provide 
access--or obviously somebody else, 72 years later down the 
road--to those records. In that sense, it is very different. It 
is very sensitive and it is the first time. I can assure you 
that we will be very, very careful before we sign the schedules 
for those records, which would then allow the destruction--
which we have always done. It has been the patter from the very 
beginning that the voluminous volume of originals are not 
practical to be kept as long as there has been made a copy--and 
of course to this time, it has been microfilm.
    Mr. Turner. So for the first time we will not microfilm, 
but there will be a computer file.
    Mr. Carlin. That is correct. They are being produced in 
electronic form. So access to them 72 years down the road will 
be very different. As I talked to my staff yesterday, thinking 
about some of the subjects we might discuss, one of the things 
we readily agreed was that it would be somebody else's problem 
to convert those microfilm reading rooms to electronic many 
decades down the road. But our responsibility is to make sure 
we have captured and secured that information--those census 
records--so that we cannot just preserve but provide access at 
the appropriate time.
    Mr. Turner. Specifically, what type of concerns have been 
expressed by the Census Bureau? Are they worried that these new 
computer records will not be as accessible as they were under 
the microfilm system?
    Mr. Carlin. I am not aware that they have expressed any 
concerns along that line. I am aware that my staff has worked 
very closely with them on the procedures, the development of 
the process--starting as early as 1995--beginning the 
discussion and communication back and forth.
    I think the concern is more on our side in making sure that 
the scheduling gets done and making sure we are confident that 
the technology that we have been a part of describing and 
developing in fact can do the job.
    Mr. Turner. Thank you.
    Mr. Horn. Let me pick up on Mr. Turner's question.
    I was on the visiting committee once for the Stanford 
University libraries. One of the librarians came in and had 30 
books there and started to snap them in half. We all just about 
fainted. But that is the problem with the acidic paper.
    To what degree do you have that problem in the preservation 
of records and the wear and tear on paper since the 1830's?
    Mr. Carlin. This is a good followup question because that 
is again where microfilm plays a significant role and where we 
try to focus our energies on the limited resources we have for 
microfilming additional records, that is, microfilming those 
records that are used most frequently so that the access the 
researcher gets is through microfilm, not the original.
    Obviously, this is a small portion of our holdings, but we 
focus on that for preservation purposes.
    Mr. Horn. What do we know about magnets and other things 
that can upset an electronic data system? Suppose you had it 
all wiped out after this? Where is the record?
    Mr. Carlin. Well, if you are relating this to the past 
question, we are talking about a very nervous archivist in 
terms of making sure that we are confident in what we have.
    I am going to yield to my Deputy in a moment, who has a 
little more direct expertise in this area. But that is why I 
want to make sure we get it. I do not know if the plan is to 
have a back-up preservation copy--I assume there is. That is 
the traditional way. But you are correct. As I stated in my 
opening remarks, one of the challenges of electronic records is 
that they are so easy to disrupt, so easy to erase.
    Lew.
    Mr. Bellardo. The standard procedure that we have for 
electronic media would be to have an offsite back-up copy, 
which I guess we would call our preservation copy.
    Mr. Horn. Where do you store that? In a cave somewhere?
    Mr. Bellardo. Well, we currently----
    Mr. Horn. I am not being facetious. Get it away from 
effects that could be on them electronically.
    Mr. Bellardo. That is the case for microfilm security 
copies. We do have them actually in underground storage. The 
magnetic media are stored--unless there has been some recent 
change--in the Washington area, but offsite, therefore, we have 
the ability to generate another copy.
    The other concern that the Archivist expressed is to be 
sure that the format that these materials would be coming to 
us--that we would be able over time to preserve that and to 
also provide access to it. We are working through those format 
questions with the Census Bureau.
    Mr. Carlin. The technology we will receive it on will be 
migrated several times before ultimate access. We cannot even 
imagine what technology might be like 75 years down the road, 
but we can assume it will be several generations--many, many 
generations--removed from what we experience today. So one of 
our issues is to make sure that we can migrate that information 
to a technology that would be in use at the time access becomes 
available.
    Mr. Horn. The census records, you say, have been destroyed 
from past censuses?
    Mr. Carlin. The originals are destroyed once they are 
copied onto microfilm.
    Mr. Horn. Did the person who was polled in that census--did 
they fill out a separate form saying 1860? 1870? 1910? What was 
the form?
    Mr. Carlin. The patterns have varied over the years, but it 
is my understanding that we have always microfilmed the 
original.
    Mr. Bellardo. Basically, what happened was the enumerator 
would walk down the street and question the individuals and 
they would make notations on the form. They would occasionally 
encounter people who did not want to be interviewed or 
whatever. But other than that, they did their best. You can 
actually track the street they were on and the addresses and so 
forth of the people they were talking to.
    But generally speaking, it was not a form that people 
filled out themselves. I think the most recent census I 
participated in I actually got a mail-in form, filled it out, 
and sent it back in.
    Mr. Horn. Let's say a President in 1860 and a President in 
the year 2000--it would seem to me to be very interesting to 
keep that document--the original. So what do you do with that? 
You burn Abraham Lincoln's interview and you burn William 
Jefferson Clinton's about-to-be interview?
    Mr. Bellardo. I think what has happened in the past is that 
at the time the microfilm was transmitted to us those records 
were in fact destroyed after the quality was checked.
    In the case of Clinton--of course, in the case of Lincoln, 
it would not have been in his handwriting. It would have been 
the enumerators handwriting. In the case of Clinton, 
presumably, if he has a mail-in form and mails it in, then it 
would in fact be in his hand.
    Mr. Horn. There are a lot of people, as you know, 
interested in genealogy. You have the Mormon church, the Church 
of Latter Day Saints. They have great genealogy records. It 
seems to me that I would rather put these in State libraries--
if it is a State--or someplace. Or make some money off it, to 
be blunt about it. We have everybody in their library who hangs 
up commissions by this or that President or confederate bonds 
or whatever it is. It seems to me there might be an interest in 
genealogy if one had one's ancestors records before they are 
burned. I would like nothing more than to have the records of 
my great grandfather from Ireland in the 1840's in Washington, 
DC.
    There is a possibility there to make money for the archives 
in a trust fund, or an endowment, or whatever.
    Has that been thought of?
    Mr. Bellardo. If I can return to the historical census, we 
have really been talking about the population schedules. The 
non-population schedules, which were also done during the 19th 
century--some of those survived in hard copy and actually some 
of those are deposited in State libraries or archives or the 
equivalent of that. We have some of them at the National 
Archives as well.
    In terms of the 2000 census, we have not thought about that 
at this point.
    Mr. Carlin. You have given us something to think about, Mr. 
Chairman.
    I would tell you, we have not been pressed by the 
genealogists on that subject as much as making sure that we get 
the information so it can be made available. The originals--we 
will take a look at that.
    Mr. Horn. I have a real problem with microfilm--I will tell 
you--and to microfilm readers. The ones in the Library of 
Congress are a disgrace and they know my opinion on it. Maybe 
we will have to put a line item in their next budget to make 
sure that they get some decent microfilm readers. But I am 
going through about 50 years of records on microfilm in 
newspapers. I did that in research as a graduate student and 
other books and so forth. But it seems to me they are a 
horrible thing and there must be a better way to invent a 
decent microfilm reader where you can get focus and not have 
things blacked out on the page and all the rest of it. It 
depends on how the person held the object before they snapped 
the microfilm button.
    That bothers me that records are just smudged and all the 
rest of it. In this case, it is the California State library 
and I am using the Library of Congress equipment to read it. 
But it bothers me.
    So what do we do to improve that service?
    Mr. Carlin. Thanks to the support of Congress, starting in 
the year 2000, we have a sum of money to replace on a sane 
basis our microfilm readers in all our facilities across the 
country. Assuming we can find quality microfilm readers, we 
will not be talking about broken-down, ancient, poor-serving 
microfilm readers.
    Mr. Horn. Let me move to another subject. I am not done 
with that, but in a report we might have something to say on 
it.
    What would you say, Mr. Carlin, is the greatest challenge 
you face as Archivist?
    Mr. Carlin. I think the most significant challenge I face 
and that we at NARA face is the set of issues involving 
electronic records.
    Mr. Horn. Are you issuing guidance to Federal agencies on 
these? How does that work? Is there another agency in the 
Government who is looking at the overall electronic use of 
records--just for operations, let alone archival purposes?
    Mr. Carlin. We are accepting the responsibility we have to 
work with agencies to provide them guidance. As I indicated in 
my testimony, we have established a group of our own experts, 
plus experts from Federal agencies, as well as outside experts 
to begin the process. In fact, very soon, the first set of 
advice going to agencies will be up on the web.
    Clearly, we feel--not just because of our responsibility 
for those records scheduled permanent, but for all records, 
temporary as well that have an incredible value for a 
particular period of time--that we have a responsibility to 
work with the agencies. Our partnership with the Department of 
Defense to establish standards was an effort to start to 
provide guidance to the private sector to produce software that 
met certain standards that would be conducive to agency use 
today and our use as well as theirs down the road for future 
access.
    Mr. Horn. Do you feel that industry is responding in terms 
of what you are seeking in the software?
    Mr. Carlin. They appear to be very interested in what we 
are producing. They obviously know the Federal Government is a 
large customer and they want to make sure they are providing 
something the Federal Government will buy. I think there is no 
problem here. The challenge is to make sure--as we have 
indicated--to DOD we are saying, This is one way to go. We are 
not saying it is the only way to the private sector or 
agencies.
    Mr. Horn. The National Archives' fiscal year 1999 
performance plan indicated that the business process 
reengineering plan would be complete in 1999. However, fiscal 
year 2000 performance plan notes that the reengineering plan is 
scheduled for completion in the year 2000. What is the cause 
for the delay?
    Mr. Carlin. We are talking about the business process 
reengineering of the scheduling and appraisal of our operation, 
I assume, if I heard you correctly.
    The reason this is delayed is--first of all, we put this in 
our original strategic plan as a key challenge we needed to 
address. We set the time table which we thought was realistic. 
Then we faced a lawsuit, for one example, that took a great 
deal of our time and energy. With our limited staff and 
resources, we had no choice but to focus and suddenly make it a 
priority. That was one point that caused it to slip.
    The second thing that caused it to slip is that the more we 
looked at the subject, the more we realized that initially 
there were major policy issues that needed to be addressed 
first before we even started the traditional BPR.
    I would like to have my Deputy, who is working on this in 
terms of what we are really doing today, take a moment to share 
where we are headed on this very important task.
    Mr. Horn. Fine. And as you know, we will have the GAO on 
the next panel. If you can stay, we will get a dialog on that 
report.
    Mr. Carlin. OK.
    Mr. Horn. Mr. Bellardo.
    Mr. Bellardo. As we have been dealing with the GRS-20 
guidance and bulletins and have heard back from agencies, one 
thing that has become clear to us is that the world is changing 
very rapidly in terms of how agencies are doing their work. In 
order to get a real sense of what the problems are that need to 
be addressed in a reinvention project relating to appraisal, 
scheduling, front-end, what our role should be, what the 
agency's role should be--we need to have a better picture of 
the way records are being created today, the role of the 
various players within the agencies--the IGs, the internal 
auditors, the general counsel's office, records managers, and 
so forth--and then how those records are being used.
    We do know that there are developments with the web and how 
people are using information, how they are accessing it, and 
how they need it presented to them. We are interested in both 
the public as well as agency users of information.
    On top of that, we think we need more information about how 
the records are actually being disposed of in the agencies. 
This is an area where the dialog has been with the GAO folks.
    But we are not setting aside this reinvention effort. In 
the coming few months, we are going to be gathering information 
in the areas I have just talked about, feed that information to 
the policy review, and out of that build our as-is model and 
our to-be model in terms of how we feel we can be more 
effective in the agency scheduling and appraisal processes.
    Mr. Horn. In July, when the General Accounting Office 
issued the report stating that the National Archives could 
learn from its planned baseline survey of Government-wide 
agency records management and could incorporate positive 
changes in their business process and reengineering plan, why 
did the Archives disagree with the GAO recommendation to move 
forward with the baseline survey?
    Mr. Carlin. Let me just say in general, from my point of 
view I do not think we have a disagreement. The initial 
baseline was heavily focused on just standard data elements, 
not the kind of information my Deputy feels very strongly that 
we need to know to do this right.
    So in terms of communication, we stopped that part of it 
because we felt it was foolish to gather all that information 
if eventually the system was going to be changed and it would 
have to be done again. But from a practical point of view, what 
GAO was saying I think we are now doing. We think it is very 
important to know what is going on, to gather information. It 
is just that the original plan was very narrow and focused on 
detail rather than the kind of general knowledge that we needed 
that would only come from a different approach.
    Mr. Bellardo. I would like to first say that it is an 
excellent report. We were very much interested in it. I think 
if there is a failing here, it is perhaps in our ability to 
communicate what the original baseline was projected to be.
    It was basically projected to be a review of how agencies 
are following our existing policies and procedures and so 
forth. What we are now about looking at is whether those 
policies are working and whether we need to look at other 
policies and other kinds of procedures. I think that is 
probably underlying the suggestions that are being made in the 
GAO report.
    So I do not think we are really in disagreement as to where 
we need to be. It is just that in order to comment on the 
recommendation that we should do the original baseline as we 
outlined it, we feel as though that would not have helped us in 
the reengineering process.
    Mr. Horn. My understanding is that the fiscal year 2000 
performance plan aims to convert 10 percent of existing record 
series descriptions or finding aids to an on-line archival 
research catalog. Is that the way----
    Mr. Carlin. That is the direction I would want to check to 
confirm.
    I would say in general that as an agency we are very 
supportive of GPRA and the targets--the performance aspect. We 
are very committed to our strategic plan. We were committed to 
that plan before, so all of this has worked very well together. 
But we did learn very early--although in general, in most areas 
we are achieving our goals--because we did not in many cases 
have good baseline information, we will be adjusting those 
goals to a more realistic set of targets as the 2000 is 
finalized as well as the 2001 developed.
    Mr. Horn. Do you think you can hit the 100 percent mark by 
2007? That is what presumably 10 percent means when you start 
in the year 2000. Is that a realistic timeframe?
    Mr. Carlin. We think it is realistic if we can secure, by 
one means or another, the resources to achieve that goal.
    Mr. Horn. What do you need? Is it the hardware, the 
software, or both?
    Mr. Carlin. In this particular case, talking about the 
research catalog, it is just the challenge of populating. We 
have the resources to put the catalog together. That will be 
done very shortly--in terms of months, not years. But then it 
will be the challenge of populating it, getting everything in 
there, and that will be labor-intensive.
    Mr. Horn. Have you asked for those resources in recent 
budgets? If so, has OMB cut you or supported you?
    Mr. Carlin. We have not specifically asked for resources to 
populate to OMB, so they have not--we have been supported for 
the resources we felt we needed through the 2000 budget to do 
because the focus through 2000, for the most part, is to 
complete the system, to get it up, operational, and running. 
Then the challenge ahead is populating, which we think can 
heavily be focused on existing resources, but we do not know at 
this point how far that will take us and whether in future 
years to be complete in 2007 we will have to add additional 
resources.
    Mr. Horn. Agencies often rely heavily on websites to convey 
information to the public. To what extent does the Archives 
consider materials on websites as permanent records and what 
guidance are you issuing to agencies for their preservation?
    Mr. Carlin. I am going to let my Deputy comment 
specifically on how we schedule web records. We see the web as 
an incredible opportunity to take our resources to people that 
never have the opportunity to visit one of our facilities. We 
also see it as an incredible opportunity to communicate more 
efficiently with our biggest customer, the Federal Government 
and all the agencies we deal with in terms of guidance we 
provide. Our hope is, in the coming years we will greatly 
expand how we use the web to communicate back and forth to make 
the processes that work through the life cycle of the record 
much more efficient.
    But on the scheduling issue, I want to yield to my Deputy.
    Mr. Bellardo. First, a word about guidance.
    We have been working and have an internal draft for records 
management guidance for agencies relating to websites. We are 
not happy with that draft at this point. One of the things we 
hope to be working on with this fast track team is the web 
guidance. We would hope that one of the projects they take up 
would be to refine the web guidance and really make it a tool 
that could be useful to agencies.
    In terms of the scheduling aspect, what we are saying to 
agencies is that if you do not have a separate record file of 
the document that you are putting on the website, then these 
must be treated as records and must be scheduled. On that 
basis, we would do an appraisal and then make a determination 
as to which of those we will accept for accessioning.
    From a practical standpoint, we are going to have to be 
looking in the future at creative ways--if I can use the word--
to harvest that information in cooperation with the agencies 
because much of it, I suspect, will be very ephemeral if we do 
not act in a very proactive way.
    Mr. Horn. To what degree do we know, in the Presidential 
libraries, the degree to which we have electronic records? Have 
they been destroyed? We think of the Ollie North situation 
where he can go through and wipe out a lot of the electronic 
records. What can we do to get the material into the 
Presidential libraries without a lot of ``throwing a few tapes 
overboard''?
    Mr. Carlin. There are a lot of things we can do. Obviously, 
the Presidential libraries--the Presidential records are more 
electronic to date than Federal records. So it has sort of led 
the challenge in dealing with electronic records going back two 
or three administrations.
    The No. 1 thing we can do, Mr. Chairman, for the future, is 
to be much more aggressive as an agency and successful in 
working with a new administration from day one. The problems to 
this point have come from not knowing what should be done, to 
not being there with succeeding administrations to really 
assist them. It is our goal to be very aggressive with the new 
administration in the transition period following the 2000 
election so that--particularly with electronic records, but not 
exclusively--we can provide the guidance, make sure the systems 
are set up.
    As you are well aware, the bulk of Presidential records are 
permanent. It is a very different situation. We do not do the 
traditional scheduling. We start out with the assumption that 
they are permanent and go from there. So we are talking about a 
large volume of electronic records in various formats that are 
being preserved today for Reagan and Bush, for example, but in 
a difficult and expensive way. If we can get there up front and 
get it done right, we can save money and provide access much 
faster.
    Mr. Horn. We put legislation in to provide for an 
orientation of Presidential appointees and nominees, regardless 
of who is President in 2000 and regardless of whether it is 
between the election and taking the oath of office because 
there is a continual number of appointees. I think it would be 
good--and I will have staff note it--that we also get into the 
archives role of that.
    You are absolutely correct. Cabinet secretaries ought to be 
brought up to speed.
    I remember in the Eisenhower administration we had three 
wonderful mail clerks in the secretary's room and those records 
were absolutely immaculate when they were turned over to the 
Eisenhower Library.
    I think that would be very helpful.
    I see we have a vote on. I will have to recess this so Mr. 
Turner and I can keep faith with our constituency, whatever 
that is over there.
    Mr. Carlin. We would not want that to be interfered with.
    Mr. Horn. So we will be in recess for about 10 to 15 
minutes.
    [Recess.]
    Mr. Horn. What can you tell me on records about the 
legislative branch and the degree to which you are getting 
them?
    Mr. Carlin. As you are aware, we are the custodian of the 
legislative records. I will let Lew comment in depth, but it is 
my feeling that Mike Gillette and his operation have 
established a very good relationship with both House and Senate 
and not only are we getting the records, but access is not only 
based on a schedule but congressional support for access. That 
support has significantly improved on the access side of things 
in the last few years.
    Mr. Bellardo. I am a previous head of the Center for 
Legislative Archives, and even at that point in the late 1980's 
and early 1990's we had a good rapport. I think Mike has been 
even more aggressive in working with the historical offices and 
with the committee staffs and so forth.
    The sense that we have is that there is a very regular 
process of transferring materials. As you know, it is committee 
records and not the records of the individual Members' offices. 
Those are basically their records and they usually donate them 
to a university back home.
    We are also doing some work on the Senate side as they are 
developing a new electronic records system in the Senate. We 
have staff who are involved in working with Senate staffers on 
that. I believe that cooperation is moving forward as well.
    Mr. Carlin. I would also add, Mr. Chairman, your new clerk 
is exceptionally well-grounded on records issues. We look 
forward to a very good relationship with him.
    Mr. Horn. Thank you. Mike Gillette has done a terrific job, 
no question about it. I particularly enjoyed seeing what he had 
done for the schools of this country in terms of real-looking 
documents. You would think they were the originals in terms of 
Thomas Jefferson, women's suffrage, and this sort of thing.
    Besides the committee records, to what degree are you able 
to get the party records, such as the Democratic Caucus in the 
House and the Republican Conference in the House? I would love 
to see the notes Bobby Baker in the Senate kept on who got what 
position and what committee and this kind of thing. They could 
put a 50-year limit on it, but it would be great historical 
evidence that frankly you do not have right now. I do not know 
what they do with those, whether they dump them in the ash can 
or what.
    Mr. Bellardo. No, I do not think they do. I think we need 
to get back with you with more accurate information, but it is 
my understanding that there has been significant progress on 
the caucus records. Whether or not we have actually accessioned 
them at this point I am not sure. That is what we will need to 
get back to you on.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.036
    
    [GRAPHIC] [TIFF OMITTED] T4651.037
    
    [GRAPHIC] [TIFF OMITTED] T4651.038
    
    [GRAPHIC] [TIFF OMITTED] T4651.039
    
    Mr. Horn. I will give you another example that you might 
get them collecting, then.
    When I first came here, I started collecting each flyer 
that is used on the floor to pass or to not pass a bill. No one 
has ever done it. I have 6 years and I am going to keep it. 
[Laughter.]
    Somebody around this place--once I am not here--should be 
doing that because it is fascinating in terms of what they say 
is in that bill versus what is in the bill. I can put a lot 
of----
    Mr. Carlin. We will make sure we pass that one along.
    Mr. Horn. It would be a fascinating little comparison.
    We were talking about websites. You project that in fiscal 
year 2000 the Archives will process and release 75 million 
pages of agency records for access. What portion of the total 
amount of records are backlogged and need processing of that 75 
million? Is that a realistic schedule?
    Mr. Carlin. Are we talking about classified records?
    Mr. Horn. Mostly, yes, it is classified records.
    Mr. Carlin. How much progress we make is obviously impacted 
by additional responsibilities we are given. We estimate, for 
example, the Lott amendment, which will require us to go back 
and revisit page by page a lot of records that have already 
been declassified and in fact are out on the shelf. The latest 
estimate that has been given to me is some 200 million pages 
that will have to be gone through page by page which will slow 
us down in terms of how much we can get done under the 
challenge of declassifying records that have never been 
declassified.
    As you are well aware, we are heavily dependent upon the 
agencies to provide us guidance. If they provide us guidance, 
we can do the work. If they do not provide us guidance, then 
all we can do is try to facilitate, encourage, support, assist, 
fix up a nice room for them, provide them support, bring the 
records, encourage them to come down to do the work. What 
really gets challenging is where you have multiple equities in 
one record where you can get the Air Force to declassify it but 
the Army hasn't. So until all the equities have been resolved, 
you do not have an open record.
    Mr. Horn. On that point, somebody told me a couple of years 
ago that we still have some World War I records that have not 
been declassified. Is that true?
    Mr. Carlin. Yes. And my Deputy would like to comment on 
this. We also have the formula for disappearing ink classified. 
Although I never ate the right cereal, my Deputy might share 
his experience.
    Mr. Bellardo. I understand that there are such formulas 
available to those who eat the right breakfast cereals. But I 
do not know if we can go into further detail than that. The 
information is----
    Mr. Carlin. My Deputy is much more sensitive to CIA 
restrictions than the Archivist. [Laughter.]
    Mr. Horn. But who has control over those World War I 
records?
    Mr. Carlin. The agencies that still maintain an equity in 
those records. If they had provided us guidance, they would be 
open. But they have not. So by law they have total control.
    President Clinton's Executive order--a more aggressive 
order than previous Executive orders--put a deadline. But now 
there has been and will be a postponement of that deadline and 
the new administration ultimately will deal with whether that 
deadline will in fact be real or not. But it did put some teeth 
in and the massive amount of declassification that has been 
done in the last 3 years is directly related to the strong 
orders that were issued in that particular Executive order.
    Mr. Horn. The Executive order cannot trump a law, so do we 
need a law to say that all the records relating to World War I 
should be released?
    Mr. Carlin. We would certainly be interested in any 
legislation that would encourage access. We are as sensitive as 
anyone to inappropriate declassification. There have been 
multiple discussions in the last few years--as you are well 
aware, Mr. Chairman--on ways to take lessons from Executive 
orders and put it into the law. There has not been much 
progress to this point.
    You have been involved and supportive of--Nazi war crimes 
records have a particular emphasis right now. We are making 
progress in that area and a lot of records are being opened 
that would not have been opened without that leadership. But a 
more across-the-board systematic approach would be the most 
conducive for efficiently dealing with declassifying records in 
a way that is appropriate.
    Mr. Horn. Should there be a special commission of outsiders 
and insiders to do that? Or do we just say, Do it, and forget 
about it? Who has the records on World War I? Where are they?
    Mr. Carlin. To those agencies that would be responsible, it 
would--from our perspective, we would like to have generic 
across-the-board guidance that would lead to action rather than 
a special committee that would pick and choose. It is less 
efficient and we feel ultimately will not serve the best 
interest. But we would certainly welcome the opportunity to 
discuss what legislation might be able to provide and followup 
on the successes and the lessons we have learned from Executive 
orders.
    Mr. Horn. Does the Archives have the papers from World War 
I that have not been declassified? Is it under your custody?
    Mr. Carlin. Under our custody to store them, but we do not 
have the authority to declassify them ourselves.
    Mr. Horn. But you have the records? Or does the Department 
of Defense have it?
    Mr. Bellardo. We have basically a half dozen documents that 
are still classified from World War I. We have many other 
records from World War I that are not classified. But I do not 
believe that we can with absolutely certainty state that there 
are no classified records in an agency's physical custody from 
that period. We do not know, so I cannot answer you.
    Mr. Horn. Have we ever asked the question of them? It seems 
to me, in response to a congressional committee, the Archives 
ought to be able to ask the Department of Defense, the military 
historians over there, what are the holdings and where they are 
held.
    Mr. Carlin. I think that is absolutely appropriate and one 
of our long-term intentions in changing the culture of NARA to 
where, in terms of our relationship with agencies, we are much 
more proactive, we are partners with them. One of the issues in 
terms of our scheduling reappraisal is the issue of 
inventorying the records that exist. It is one of the first 
steps an agency needs to take to make sure all the records are 
scheduled.
    Yes, I think it would be very appropriate for us to work 
with agencies to get out on the table and make sure that we 
have a better opportunity to address records that have been 
held that we are not even aware of.
    Mr. Horn. Could you explain for the record the Kyl and Lott 
amendments and what impact they can have on the Archives and 
your resources?
    Mr. Carlin. The Kyl amendment was focused on existing 
classified records in the pipeline, records that have not been 
declassified. But instead of the traditional way, through 
guidance and decisions, using more of a bulk approach, the Kyl 
amendment focused on a page-by-page review. When you are 
talking about millions and millions of pages of records, the 
resource issue changes rather significantly when you go from a 
more bulk approach to page-by-page.
    We have tried--and are in the process of working out on the 
Kyl amendment--a set of procedures which really were assigned 
to us as part of that legislation that we sit down and work 
with. The focus with the Department of Energy, for the most 
part, is that we develop ways to identify where logical focus 
ought to be for the page-by-page and reduce the quantity that 
must be looked at page-by-page.
    I think ultimately we will be successful with that.
    The Lott amendment takes the next step, you might say, in 
going toward page-by-page review of already declassified 
records, records that are out on the shelf, records that have 
been in the public arena. There again, we are trying to take a 
look at ways we can narrow that universe so that we can have 
some kind of consensus on where it is possible, most likely, 
that a mistake might have been made, where records that should 
not have been declassified in fact are out on the shelf.
    It obviously requires an even more significant burden and 
certainly puts on the table a set of records that we had 
assumed were now open and beyond the challenge of 
declassification.
    Mr. Horn. What led to this? Was there something that 
bothered somebody around here?
    Mr. Carlin. What led to this was the concern of premature 
release of records, of information in terms of nuclear energy 
that were being shared overseas. Some of the scandals that have 
been the focus of the last couple of years have caused Members 
of Congress--and from that perspective, rightfully so--to 
question and be concerned. Out of that came these two concepts 
to--on behalf of making sure that records that shouldn't be out 
there are not out there.
    Mr. Horn. Generally, that judgment would be made, I 
presume, by the Nuclear Regulatory Commission. Or would it? Or 
would it be made by the defense group within the Department of 
Energy?
    Mr. Carlin. Now it is a matter of going back to these 
entities and working with them. Initially, particularly on 
records that are already declassified, they would have been 
declassified either by the entity--the agency themselves--or 
through guidance they provided to us for us to do the work. So 
it is a matter of going back and rechecking work that has 
already been done.
    In the case of the Kyl amendment, it is a more intense 
focus on what has already been done, but done in a broader, 
more general way than the page-by-page.
    Mr. Horn. Are we talking about hiring a number of nuclear 
physicists for the Archives who could understand what is in 
those documents?
    Mr. Carlin. Mr. Chairman, that is why in most cases--in 
this specific example--we will not receive guidance to do it on 
our own, but we will be working with the agencies. I think it 
would be inappropriate for us to come to Congress and ask for 
the resources to have expertise in all the technologies. When 
we get into a technology, an area of science like nuclear 
energy, that is where we should work with the scientists. But 
it is our responsibility to push the envelope and try to bring 
them to the table so that in an appropriate way these records 
are dealt with and open to the public.
    Mr. Horn. I am told that it is possibly 513 million records 
that might be subject to the Lott amendment?
    Mr. Carlin. That is correct. We are hoping to--through 
discussions and negotiations--lower that to about 200 million.
    Mr. Horn. And would it be a sampling? Or page-by-page 
review? Or how detailed will it be?
    Mr. Carlin. It is my understanding that it is to be page-
by-page.
    Mr. Horn. Your appropriations committee will be interested 
in that.
    Mr. Carlin. And we intend to keep them in the loop on this 
issue.
    Mr. Horn. Let's move to State archives issues for awhile.
    You and I have chatted about this and the possibilities of 
partnerships. We have some very fine State archives in this 
country.
    What is the relationship between the National Archives and 
the State archives? What could be deposited within those 
libraries to save you space for some things that pertain to the 
history of that State?
    Mr. Carlin. We partner in a variety of ways, Mr. Chairman. 
As you are very personally aware, one of the areas is through 
the National Historical Publications Records Commission, our 
grant-writing entity, where we provide grants to State and 
local units to assist them in archival records management 
challenges.
    The benefit there is multiple--not just to the entity that 
receives the grant--but the other State and local entities that 
can benefit from what was learned with the carrying out of that 
grant. A lot of times there are examples where they have done 
demonstration work that has been beneficial to us because our 
work is basically the same. So NHPRC is an incredible entity 
for us to partner with State and local.
    But it is really broader than that because we share not 
only similar responsibilities. As I have indicated to you, I am 
very much aware, as a former Governor, that much of what is 
done at the State and local level is done with Federal money. 
But once the responsibility shifts to the State and local 
unit--once the money has been delivered--the records that are 
created are State and local records. So I have taken a real 
interest in a variety of ways of making sure we work together.
    When we worked on the standards of the storage of records, 
Lew and I worked very closely with inputs from the States and 
across the country because they were interested in those 
standards. When we have tried to deal with some of the 
electronic guidance challenges--they have similar challenges--
we have likewise tried to partner with them to make the most of 
the combined resources that we can bring to the table.
    In terms of there being a site for the storage of records, 
we do have what we call an affiliated archives system. Compared 
to what you might be alluding to, it is very modest. But we 
have examples of Federal records, archival records, permanent 
records that are stored in a non-Federal facility for various 
unique reasons--usually a specific collection rather than a 
more broader, general purpose.
    We do try, in terms of the direction you are headed, to 
make sure--where it is good archival practice--to have records 
of a particular interest to an area that those records are 
deposited in a regional archive rather than a Washington 
archival facility.
    Mr. Horn. I think there is a lot to that.
    You know the Smithsonian is now loaning a number of 
artifacts from its collection to university museums, city 
museums, and that has been very helpful in broadening the 
opportunity for people to look at a particular period of art, 
or whatever it is.
    Mr. Carlin. Mr. Chairman, we are doing something somewhat 
similar, but not in a massive way. We do loan particular 
records of significance to a particular area for a time, 
assuming preservation security issues can be agreed upon.
    Mr. Horn. What do we know at the national level about the 
state of various State archives? Is there an accrediting group 
to tell us which States are prepared to handle the turning over 
of records which pertain to those States?
    Mr. Carlin. The bulk of what we know comes through our work 
with NHPRC and the State advisory groups that are set up. There 
have been, over the years, a number of projects where the 
results have provided us some information. As I indicated to 
you in a conversation we had last week, we do not have a 
program right now where we go out and analyze in depth, State 
by State.
    I think it could be justified because, as I said earlier, 
there is a lot at stake in terms of--purely from a 
congressional point of view on accountability for the programs 
you pass--being able to document what is really happening with 
those programs, you need State and local records to make that 
accountability really work.
    Mr. Horn. The gentleman from Texas?
    Mr. Turner. Thank you, Mr. Chairman.
    Governor, I wanted to inquire into this issue of archiving 
e-mail records. I was interested in your statement about the 
ability of the San Diego Supercomputer Center to basically 
preserve 2 million e-mail messages in 2 days time. Yet I 
understand there are questions about--once you preserve the 
records--whether you have the computer system that can then go 
read those records.
    What is the status? And what is the Archives' position on 
preservation of e-mail records by the various agencies? And how 
are we going to accomplish that?
    Mr. Carlin. First of all, I think it is very important to 
understand that the medium on which something is presented, 
contained, or printed does not determine whether it is a 
record. A record is a record, whether it is on an electronic 
system, textual, microfilm, whatever. So the same applications 
apply. The unique challenges are there, certainly in terms of 
e-mail.
    One of the principal issues we are dealing with with the 
San Diego Supercomputer Lab is to address what you are really 
raising here. Until we have the capacity to not only take in, 
preserve, and provide access in an electronic system, we cannot 
really have the capacity in that way to deal with e-mail. Now, 
in many cases where agencies do not have the electronic 
recordkeeping system--which is the bulk of them--they print out 
paper. That was part of the discussion with the lawsuit we got 
involved in and some of the aspects of that.
    But ultimately we want a system by which we can take those 
e-mail records in electronically, preserve them, and make them 
accessible electronically.
    Do you want to add anything?
    Mr. Bellardo. Just one of the aspects of this we are 
working on this year. We have a prototype that is being built 
for the reference end of this set of systems. By the end of 
this year, we believe that prototype testing will be complete, 
which was basically to determine--once you have it preserved--
how you can make it available for people to use in an on-line 
environment. We are very hopeful that this prototype will work 
well and that that would feed to the larger project that would 
involve all the processes we would have to do to bring the 
materials in, to preserve them, to put them in a neutral 
environment or hardware/software independent environment, and 
then to make them available.
    We are excited about this prototype and are looking forward 
to seeing how this works out.
    Mr. Turner. Since agencies and Presidents have been using 
e-mail, how much of it have we preserved? How much do we have 
access to? And once you capture it, is it in a form that will 
last? Or are there some problems with it deteriorating over 
time?
    Mr. Carlin. In the case of Presidential records, that is 
one of the issues I alluded to earlier indirectly when I said 
that we must get there at the beginning of an administration to 
get the system set up right. We have gone to extraordinary 
means to be able to recapture and ensure documentation that was 
created in the Reagan, Bush, and Clinton administrations. I 
think in the end we are going to be successful and we will be 
able to say that we have those records and be able to provide 
access to them.
    But it was not done efficiently and certainly not without 
great cost. The bulk of the agencies are printing out e-mail 
that are Federal records in paper and we would be dealing with 
them, for the most part, in the regular way.
    Mr. Turner. That must be a very inefficient way of trying 
to preserve those records.
    Mr. Carlin. Absolutely. But until we have systems set up to 
be able to preserve and provide access long-term, it is the 
short-term transition procedure that we must continue to use.
    One of the decisions out of the lawsuit was in this area 
and policy-wise we made the decision--separate from the 
lawsuit--that all program records should be scheduled, 
including the electronic copies of records. That is one of the 
issues we are working on to carry out ultimately, how we do 
that with agencies to make sure that even the electronic copy--
there is an opportunity for the public to comment on how long 
it should be kept. If the recordkeeping copy is the textual one 
and it is a permanent one, it will be the permanent. But the 
decision is that the electronic copy--there should at least be 
on program records a review of how long it is kept because it 
might in the short-run be very valuable for a period of time.
    Mr. Turner. Are the e-mail records of past Presidents 
available at the Presidential libraries today?
    Mr. Carlin. They will be, as the law provides and 
processing has taken place, yes.
    Mr. Turner. In hard copy? Or is it available in some 
accessible form on the computer?
    Mr. Carlin. I think there will be some electronic access, 
yes.
    Mr. Bellardo. Until we have a full system in place, we will 
be basically using simple viewers for people to be able to view 
the messages. The next step beyond that would be moving this 
prototype to an operational pilot and then a full-blown 
reference system. That is a few years out.
    The first step would be simply to be able to view them as 
opposed to having very sophisticated searching capabilities and 
so forth. But that is being built. It is certainly the case for 
Reagan, Bush, and Clinton--their records will be in electronic 
form and not just on paper.
    In fact, we have just worked out an agreement with the 
Office of Administration relating to the transfer of formats 
and processes by which we will get the Clinton e-mail. You can 
see why we are so excited about this prototype. We want it to 
work.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    Let me pursue a few closing questions here on this panel 
and then we will have the GAO and others come forward.
    Just for the record, what is the current funding level of 
the National Historical Publication and Records Commission?
    Mr. Carlin. For the basic program, it is $6 million.
    Mr. Horn. Has that changed at all over time?
    Mr. Carlin. The current fiscal year will be the second year 
at the $6 million level. It has gone from $4 million to $5 
million to $5.5 million to $6 million.
    Mr. Horn. How much money could we use there?
    Mr. Carlin. I think it depends a lot on whether the program 
is reevaluated and redesigned. There is some interest across 
the country among State archivists at taking a bigger picture 
look at particularly their records management challenges in the 
State and local areas. At this point, based on applications 
that come in, we are able to fund almost all of the quality 
projects. We seldom turn down.
    In fairness, a lot of the not so acceptable are screened 
out before they even come to the NHPRC. So if you were to look 
at the total universe in terms of ideas being proposed, we 
would not be funding almost 100 percent. But of the ideas that 
come through the screening process of the advisory committees, 
the current level takes care of the funding.
    That does not mean it takes care of all the need. But the 
way the current program is designed, it takes care of those who 
apply.
    Mr. Horn. Could you just file, for the record, the number 
of projects that are underway now and the ones that were 
completed in the last 2 years so we can get a feel for what 
type of work--I assume it is getting together, say, papers for 
a particular person in American history and this kind of thing.
    Mr. Carlin. It is divided into two areas, generally, the 
documentary side. I believe the last I can recall of last 
fiscal year there were about 43 or 44 projects. The other half 
is in the records management archival area and I think there 
were 30 projects. The average grant is in the neighborhood of 
$72,000.
    The big documentary projects that take larger sums and a 
variety of other projects--I think there are 43 or 44 
documentary projects in operation at this point.
    Mr. Horn. Without objection, that information will be put 
in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.040
    
    [GRAPHIC] [TIFF OMITTED] T4651.041
    
    [GRAPHIC] [TIFF OMITTED] T4651.042
    
    [GRAPHIC] [TIFF OMITTED] T4651.043
    
    [GRAPHIC] [TIFF OMITTED] T4651.044
    
    [GRAPHIC] [TIFF OMITTED] T4651.045
    
    [GRAPHIC] [TIFF OMITTED] T4651.046
    
    [GRAPHIC] [TIFF OMITTED] T4651.047
    
    [GRAPHIC] [TIFF OMITTED] T4651.048
    
    [GRAPHIC] [TIFF OMITTED] T4651.049
    
    [GRAPHIC] [TIFF OMITTED] T4651.050
    
    [GRAPHIC] [TIFF OMITTED] T4651.051
    
    [GRAPHIC] [TIFF OMITTED] T4651.052
    
    [GRAPHIC] [TIFF OMITTED] T4651.053
    
    [GRAPHIC] [TIFF OMITTED] T4651.054
    
    [GRAPHIC] [TIFF OMITTED] T4651.055
    
    [GRAPHIC] [TIFF OMITTED] T4651.056
    
    [GRAPHIC] [TIFF OMITTED] T4651.057
    
    Mr. Horn. Could you tell me what partnerships, if any, the 
Archives has developed with the Library of Congress? Is there a 
duplication of effort here?
    Mr. Carlin. We have no official partnership. We have many 
unofficial ones. Dr. Billington and I work very closely 
together and communicate as much as our separate agendas and 
challenges allow. We both recognize that in a previous time 
there was some overlapping activity. As you are well aware, the 
Library has a much longer history. The Archives did not come 
into play until the mid-1930's. So it is understandable from 
earlier donated papers that the Library would have some records 
that if we had been in existence from day one would have come 
to the National Archives.
    We really have two very separate distinguishable missions. 
We deal with records and they deal with manuscripts, use of 
records, what has been done with them, personal donations, et 
cetera, a broader role they have extended to the world. We are 
limited and focused on Federal records, U.S. Federal records. 
Dr. Billington and I have discussed the possibility, if our 
schedules ever allow, sitting down and talking about some of 
the records and some of the non-records that need to be shifted 
back and forth for a more appropriate placing.
    I do not see any duplication in terms of our day-to-day 
actions.
    Mr. Horn. As I understand the National Technical 
Information System at the Department of Commerce was closed 
down and the documents of that department went to the Library 
of Congress. As part of a Federal agency, wouldn't it be more 
appropriate to go to the National Archives to receive those 
documents?
    Mr. Carlin. First of all, for the record, the Department 
has recommended closing down NTIS. It is still dependent upon 
action of Congress. My staff communicate to me that action is 
unlikely this year. Our interest is in the records of that 
entity. I have discussed personally with both the Secretary of 
Commerce and Dr. Billington and we have universal agreement 
that the Federal Records Law will apply to NTIS, that those 
that are scheduled permanent will come to the National Archives 
and that the function--if the idea that has been put on the 
table is carried out--would be one of distribution for the 
Library of Congress.
    Mr. Horn. Has the Archives recommended improvements for the 
Presidential Records Act? Is there a need for that?
    Mr. Carlin. I have under review a recommendation for the 
Presidential facilities. There is the Presidential Records Act 
and then one that deals with the facilities, the actual 
libraries that gets into the endowment area. I do have under 
review some ideas for change that at the appropriate time I 
would welcome the opportunity to discuss them with you.
    Mr. Horn. We would welcome that because I think the 
Presidential libraries are a great institution. I know some 
want to have everything deposited in Washington, but I do not. 
I don't think you understand President Eisenhower unless you go 
to Abilene. I think it is good to go to the Carter Library. I 
have enjoyed the Lyndon Johnson Library, pharaoh-like though it 
is. I have found the people very helpful in these libraries on 
various types of research.
    Mr. Carlin. Mr. Chairman, in regard to your comment about 
Austin, changes have been made since then, as you are well 
aware of, and you have been a part of making those changes. We 
have worked very hard as an agency to develop better facilities 
standards so that the facilities that are built are efficient 
and right for the Federal Government to accept. So some of the 
problems that have occurred--through no fault of anyone, 
necessarily, but just because of a lack of experience and 
guidance--I think we are working to correct those. I want to 
explore further ways we can develop that system so that--I 
agree with you that it is an excellent system and I want to do 
everything that I can to assure that it continues 
appropriately.
    Mr. Horn. Now on the renovation of the National Archives 
building, the main one downtown, and the reencasement of the 
Charters of Freedom. What is the time schedule for renovation 
of the building and the reencasement of the Charters of 
Freedom?
    Mr. Carlin. We had resources from the Congress as well as a 
foundation grant to do work on the reencasement in fiscal year 
1999 and have made a lot of progress. Adrienne Thomas can 
comment in much more depth.
    We also had in fiscal year 1999 the money to do the design 
concept for the renovation of our main building downtown. 
Currently, in our 2000 budget that has been signed by the 
President, we have the resources to take what we call the pre-
construction steps--final design as well as some initial 
physical work on the facility to build some office, what we 
call swing-space--so that we can do the renovation and keep the 
main functions of the building open during the 2-year 
renovation. We will be ready to start that in February of next 
year. It is our goal, if continued support from the 
administration and Congress comes for final renovation, that we 
would begin the renovation in February 2001.
    Adrienne, do you have anything else you would like to add?
    Ms. Thomas. I just would say that the rotunda part of the 
building, where the charters are displayed, will have to close 
to the public for some period of time because we are going to 
be doing some major work in that area. But the rest of the 
building, in terms of research and so forth, will be open. The 
closing of the rotunda does not happen until July 2001. Then we 
hope to reopen approximately 2 years later. Actually, we are 
looking at Constitution Day as an appropriate time for 
reopening.
    Mr. Horn. Everything around here takes 2 years. I noticed 
the east steps of the House could be done in 2 months, not 2 
years. The lady that sits on top of the dome took 2 years. And 
so it goes.
    Is there a magic number there?
    Ms. Thomas. I think there must be.
    Mr. Horn. Is there any way that the Constitution, the 
Declaration of Independence, and the Bill of Rights could be 
put somewhere in the Archives?
    Ms. Thomas. There is some work to be done on the charters. 
They have been on display since 1952, since they were moved 
from the Library of Congress to the National Archives. We began 
the encasement project because the glass of the cases was 
deteriorating and we were concerned about that impact on the 
documents, since the documents rest directly against the glass. 
We were concerned about whether or not the seals on the cases 
have been maintained for that period of time, or whether the 
original helium gas that had been inserted into the cases had 
leaked out. We weren't sure.
    Part of the process will be not only to build new state-of-
the-art encasements for the charters, but also for our very 
talented conservator staff to take the documents out of the old 
cases, take them off display, and do a careful assessment of 
what possible conservation methods might need to be applied to 
the documents.
    So there is a period of time where they are off display 
when we are working on them and the conservators are looking at 
them.
    Mr. Horn. On that point, is there a set time in the 
future--let's say 100 years from now--that all of that ink 
would fade no matter what you do? How assured are you that it 
will not fade?
    Ms. Thomas. Hundreds of years? I don't know.
    Mr. Carlin. They will be there 100 years from now. But if 
you start talking 1,000 years, as my Deputy has reminded me 
from time to time, eventually everything will disintegrate, 
regardless what you do.
    Ms. Thomas. But we are taking all sorts of steps in terms 
of UV filtration and protection of the documents.
    Mr. Horn. What are the new techniques? Would you put helium 
back into the case?
    Ms. Thomas. Actually, we are going to use argon, which is 
another inert gas but has larger molecules, so it is more 
difficult for it to leak out if there is any possible leakage.
    Mr. Horn. Has somebody tried that with existing documents 
that are not the Constitution?
    Ms. Thomas. Yes.
    Mr. Horn. And there has been no damage in the changeover?
    Ms. Thomas. No, none at all.
    Mr. Carlin. There is the signature page that we have had a 
chance to work with. There is the one page that has never been 
displayed, the transmittal page, which is the same age, same 
paper, same everything. It will be the one that we will try 
first in the new encasements.
    Ms. Thomas. As a matter of fact, the conservators are today 
taking the transmittal page out of the old encasement and will 
start their process of reviewing the document and determining 
whether anything needs to be done. The first prototype casement 
is supposed to be delivered in December. So probably by the end 
of January the transmittal page will be placed in its new 
encasement. For the next 6 to 8 months after that, they are 
going to observe the transmittal page as a test case.
    Mr. Horn. What does the transmittal page say? ``Dear 
Continental Congress, John Adams, change some of my words'', or 
what?
    Ms. Thomas. No, it is ``Here delivered is the Constitution 
of the United States, signed George Washington.'' It is not 
much more than that.
    Mr. Carlin. It has George Washington's signature in terms 
of value. But it does give us something to work with that will 
be incredibly valuable long-term in terms of the meat of the 
subject matter.
    Mr. Horn. So the Declaration of Independence does not have 
a transmittal page?
    Ms. Thomas. No.
    Mr. Horn. That is what I thought you were talking about.
    Mr. Carlin. No, it was the transmittal page for the 
Constitution.
    Mr. Horn. Well, it is interesting. So you are saying we 
have a refurbished view of that in 2002.
    Ms. Thomas. Yes.
    Mr. Horn. Now on the money, what do you use the private 
money for and what do you use the governmental Federal money 
for?
    Mr. Carlin. What we have basically done with the Federal 
money is the basic things that you would have to do to renovate 
a building. We are not using private money to do any of the 
mechanical work, handicapped access, et cetera. We are using 
the private money to enhance the experience of those who use 
the building, generally, under an educational-type direction. 
The one exception that fits there is the murals that are in the 
rotunda. There is no Federal money to take care of the murals. 
We will raise private money to take care of them. They are 
badly in need of a lot of work. In fact, the latest estimate 
could be as high as $3 million just to work on the murals.
    We would like to build a permanent exhibit that would put 
context to those documents, to make the experience more than a 
religious one for those who visit the rotunda. We will do that 
with private money, paralleling the division of labor we have 
with the Presidential Library System where permanent exhibits 
are filled with private money. Generally, we are using the 
private money to enhance the experience to make it more 
valuable, to complement the tremendous support from the 
Congress and the administration to do all the fundamentals, the 
basics.
    Mr. Horn. How much has the PEW Foundation spent on this?
    Mr. Carlin. They gave us $800,000. The Congress 
appropriated $4 million. Those two sums take us well into and 
beyond the initial reencasement work.
    Mr. Horn. That is great. PEW is a wonderful foundation. 
They have done so many constructive things in the last 5 years 
that relate to government. I am very impressed by them.
    Mr. Carlin. I certainly concur.
    Mr. Horn. Let me move now to the revolving fund and then we 
will move to the next panel.
    I guess when you look at the reimbursable revolving fund--
do you think that will mean you have lost significant amounts 
of business from the agencies when they do not want to 
participate in the revolving fund? How does that work?
    Mr. Carlin. The way it will work is the agencies will make 
a choice as to whether they want to continue to do business 
with us, or in some cases we have an example or two that has 
been in the private sector that is now going to switch to us. 
But the standards and the processes will be the same. The 
agency will have to certify that their records--if they choose 
their own facility or a private vendor--that they meet the 
standards we have established, that we will be meeting and will 
be taking care of their records based on those standards.
    We think also that, because they will be paying for a 
service--the Federal Government for the first time--they will 
look at the records in a little bit different fashion. In fact, 
we will actually learn more about the records, establish a much 
more in depth relationship with the agencies, and from a cost-
efficiency perspective, may together agree that some schedules 
on temporary records are too long, that the retention period 
should be shortened.
    This obviously would be done with public comment and 
careful analysis, but I am quite sure we will find examples 
where 30-year temporary records--it could be 20 years--saving a 
considerable amount of resources in the process.
    I think on balance we will have a much more positive, 
productive relationship as it relates to records because we 
will have--in an indirect way--raised the value of records and 
their importance.
    Mr. Horn. Well, if they are going to go the private 
facilities route, will anybody from the Archives check on it to 
see that it meets your standards?
    Mr. Carlin. The system is set up, putting the burden on the 
agency, to certify us that if they choose to go to a private 
vendor that that private vendor is meeting the same standards 
that would be in a Federal records center. Obviously, if 
someone raises an issue, question, or concern, we will check 
into it. We felt it was the more efficient route, initially, to 
put the burden on the Federal agencies.
    Mr. Chairman, as I have shared with you, one of the big 
differences we are finding in terms of standards deals with 
fire and the standards that apply to protect us from loss.
    Mr. Horn. That is what I am thinking of, the Santa Barbara 
Museum, when it was rebuilt, has a marvelous system to prevent 
any damage to the paintings by foam and so forth.
    Does the Archives have that now?
    Mr. Carlin. Yes. Tragically, we learned it the hard way. I 
guess it would be fair to say that we did not learn it in 1921 
when we lost the 1890 census. But the fire, where we lost the 
top floor of military personnel records in Saint Louis--after 
that we developed standards which focused on not just the 
facility, but the contents, to limit the loss. We cannot 
magically eliminate fires, but when the standards focus as well 
on content, then you can reduce--our standard is to limit the 
loss to 300 cubic feet. That is a big difference when you think 
that many facilities might have 50,000, 100,000, 200,000, or 
400,000 cubic feet of records. If the standards are focused on 
the facility, the contents will be likely lost.
    We are finding that is a significant difference between us 
and the private sector, although not exclusively. We are 
finding that the private sector, in many cases, with the 
support of their clients, are not as concerned about the 
contents as we are as the responsible agency for protecting the 
records of the Federal Government.
    Mr. Horn. I am glad you mentioned the Saint Louis 
situation. Almost every day in our district office, we have 600 
cases at any point in time and 10 might clear today and 10 more 
come in. A lot of it is based on not finding the records of the 
military in the Saint Louis fire.
    Mr. Carlin. We have made some progress in reconstructing 
records, but obviously it was a tragedy that we will pay a 
price for forever.
    Mr. Horn. Is there anything else you can do to make sure of 
the preservation of records?
    Was that an internal combustion fire at Saint Louis? Man-
made? Or what?
    Mr. Carlin. I do not know if we know exactly. We definitely 
know the facility was not designed to put the fire out. The 
only thing that kept it from being even more of a serious 
tragedy is that it was a well-constructed building so that the 
fifth floor down was able to hold all the water that was being 
put up there and not simply collapse the building--which would 
have taken all the records.
    Ms. Thomas. But it had no sprinkler system.
    Mr. Horn. No foam?
    Ms. Thomas. Nothing like that. No fire suppression system.
    Mr. Horn. I thank you. And if you can stay a little while 
longer, I would like you to participate, perhaps in panel two.
    Mr. Carlin. We will stay, Mr. Chairman. I would just say in 
closing, thank you very much. You, your colleagues, Congressman 
Turner, staff--you are most welcome to visit anytime. I issue a 
specific invitation, as we go through the reencasement--if you 
would like to view or see directly what new technology is 
coming, let us know and we will set it up.
    Mr. Horn. One more question comes to mind, which is the 
Ellis Island situation, where they are going to put on the 
records of immigrants that came here and there will be computer 
access. Is the Archives involved in that at all? Or is that 
strictly Immigration?
    Mr. Carlin. We are involved. I cannot recall exactly, but 
there have been several projects--at least a couple of major 
projects--up there that have competed and now it has been 
sorted out. Particularly our regional office is connected in 
terms of how that all is going to work out because we have--of 
course, one of our most useful and valuable records are our 
Immigration and Naturalization records.
    Mr. Horn. Right, and your shipping records.
    Mr. Carlin. Yes.
    Mr. Horn. Well, let's call panel two forward. That's Mr. 
Nye Stevens, the Director of Federal Management and Work Force 
Issues, U.S. General Accounting Office; Page Putnam Miller, 
executive director, National Committee for the Promotion of 
History, representing the Organization of American Historians; 
Stanley Katz, vice president for research, American Historical 
Association; and H. Thomas Hickerson, associate university 
librarian for information technology, Cornell University, and 
president, Society of American Archivists.
    Please come forward and raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. Were there any subordinates behind you who were 
going to speak, too?
    All four of the new witnesses have taken the oath.
    Mr. Stevens, we always respect the GAO reports, so if you 
can summarize that for us, we would be grateful.

STATEMENTS OF L. NYE STEVENS, DIRECTOR, FEDERAL MANAGEMENT AND 
 WORKFORCE ISSUES, U.S. GENERAL ACCOUNTING OFFICE; PAGE PUTNAM 
    MILLER, EXECUTIVE DIRECTOR, NATIONAL COMMITTEE FOR THE 
PROMOTION OF HISTORY, REPRESENTING THE ORGANIZATION OF AMERICAN 
HISTORIANS; STANLEY KATZ, VICE PRESIDENT FOR RESEARCH, AMERICAN 
  HISTORICAL ASSOCIATION; AND H. THOMAS HICKERSON, ASSOCIATE 
   UNIVERSITY LIBRARIAN FOR INFORMATION TECHNOLOGY, CORNELL 
   UNIVERSITY, AND PRESIDENT, SOCIETY OF AMERICAN ARCHIVISTS

    Mr. Stevens. Yes, sir, Mr. Chairman. I will be very brief.
    As you know, we have done a report on National Archives: 
The Challenge of Electronic Records Management, sometimes 
referred to as ERM. Our report shows that the Archives and the 
Federal agencies face five general challenges in managing their 
records in an electronic format. The first is just the sheer 
volume of these records. Some agencies, by themselves are 
generating each year 10 times as much e-mail as the total 
amount of electronic data files that were sent to NARA over the 
past quarter of a century.
    The second challenge we think is definitional. Just what 
constitutes an electronic record? The old definition of a 
record was complicated enough, even when it presumed a 
permanent format. Distinguishing and separating material with 
permanent value from the temporary and ephemeral raises a 
plethora of questions.
    The third challenge is because agencies follow no uniform 
hardware or software standards, NARA has to be capable of 
accepting a wide variety of formats from the agencies, and it 
has to have the capability of reading those records in a wide 
variety of formats.
    Preserving long-term access to these records is the fourth 
challenge, and perhaps the most difficult. The average life of 
a typical software product is about 2 to 5 years. NARA needs to 
be able to preserve the records and notably the capability of 
reading them long after the hardware and the software on which 
they are based is obsolete.
    Then finally, since NARA shares responsibility for records 
management with Federal agencies, developing and disseminating 
guidance to agencies is another long-term challenge for NARA. 
The existing guidance simply has not yet caught up with the 
universal deployment of personal computers. There used to be 
thousands of file clerks in the Government whose job was to 
identify, classify, and preserve records. Today, that duty is 
much more disbursed and individual professionals with PCs are 
the front-line of records management, and they need guidance in 
how to carry out those duties and responsibilities.
    No one really knows the state of the agencies' adaptation 
to the needs of managing their records in an electronic 
environment. Our limited work at a few of them show that some 
agencies are waiting for more specific guidance from NARA and 
others are moving forward on their own. The Defense Department 
has perhaps done the most. NARA has endorsed the DOD software 
standard as a tool that other agencies can use as a model until 
the final policy is developed by NARA.
    In doing our work, we were struck by the absence of 
Government-wide information on the records management 
capabilities and programs of Federal agencies outside the NARA 
orbit--this is the issue that you have alluded to--because NARA 
had intended to do a baseline assessment survey to collect this 
kind of data on all agencies by the end of this fiscal year and 
the information was to be collected on the infrastructure of 
the records management activity, on internal guidance, on 
training, on implementation of the schedule process--a number 
of areas.
    However, as you know, NARA has decided to postpone this 
effort to concentrate on the business process reengineering--
the BPR you have talked about. We believe that the information 
they would get from this baseline survey would really be a 
necessary ingredient to doing the BPR in as sophisticated and 
comprehensive a way as it needs to be done. We think that 
conducting the survey now could provide valuable input to the 
business process reengineering itself. It could help fulfill 
one of NARA's own strategic goals to stay abreast of the 
technologies in the agencies. And it would put NARA and the 
rest of the Government in a better position in later years to 
assess the results of the business process reengineering and to 
put the agencies themselves as--we simply just don't know yet 
right now what other agencies are doing.
    I would just like to conclude, Mr. Chairman, with a single 
observation that your initiative in holding this hearing is 
welcome and is far-sighted. Since NARA became an independent 
agency in 1985, neither Congress, nor the President, nor OMB, 
nor GAO for that matter, has placed a high priority on 
oversight of NARA's functions. The challenges I just mentioned 
in preserving our documentary heritage for the use of future 
generations really are profound and Congress is going to have 
to be a part of any solution to them.
    I conclude and will respond to any questions you may have.
    [The prepared statement of Mr. Stevens follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.058
    
    [GRAPHIC] [TIFF OMITTED] T4651.059
    
    [GRAPHIC] [TIFF OMITTED] T4651.060
    
    [GRAPHIC] [TIFF OMITTED] T4651.061
    
    [GRAPHIC] [TIFF OMITTED] T4651.062
    
    [GRAPHIC] [TIFF OMITTED] T4651.063
    
    [GRAPHIC] [TIFF OMITTED] T4651.064
    
    [GRAPHIC] [TIFF OMITTED] T4651.065
    
    [GRAPHIC] [TIFF OMITTED] T4651.066
    
    Mr. Horn. We thank you very much on that.
    We will hear from all the witnesses and then open it up to 
questions.
    At this point, we will have our next presenter, which is 
Page Putnam Miller, the executive director, National Committee 
for the Promotion of History, representing the Organization of 
American Historians.
    Ms. Miller. Thank you very much, Representative Horn.
    I have been following the National Archives for almost 20 
years and have attended almost every hearing that has been held 
in Congress dealing with the Archives. I can attest that there 
have been no oversight hearings that are broadly geared to the 
operation of the Archives. There have been some hearings when 
there has been a fire, or when there have been questions about 
a particular program. We are so appreciative of your holding 
this hearing and of your commitment, as has previously been 
said, to giving attention to this very important agency.
    I am representing today the Organization of American 
Historians, which is basically made up of history professors 
who teach at the college and university level. So I want to 
address my comments today to issues of research and to access 
of records. If records are not used, you wonder why they should 
be preserved and kept.
    One of the keys to using records are good finding aids. To 
put this in perspective, if you put all the records for the 
National Archives for Archives I and II--not the Presidential 
libraries or the records center--on a shelf, that shelf would 
extend 650 miles. You can imagine how difficult it is for a 
researcher to know where to go to find records without good 
finding aids.
    Our dream for the National Archives and part of the 
Archives' strategic plan--and you mentioned it earlier--is to 
have a series level description of all the holdings by 2007. A 
series is generally records that are similar in characteristic. 
For instance, it may be the correspondence of an Under 
Secretary for an office for a certain period of time. But you 
need some description of what is in this series. A series may 
be many, many boxes of records. So the series level 
description--which is sometimes called the reference quality 
description--is so important to us.
    But at present about 30 percent of the holdings of the 
National Archives do not have a series level description. This 
is a backlog that has developed. It goes back to the 1950's and 
1960's. There has been a long backlog of basic description. So 
when Archivist John Carlin was talking about populating the 
archival catalog, the on-line catalog, he is talking about 
entering the descriptions of these series of records.
    Our concern is that you have a big enough problem in 
scanning in descriptions that are on paper to put into the 
computerized series, but what about the records for which no 
description has ever been written that is of research quality? 
The Archives has a locator file that provides very basic 
intellectual control of records, but this is not research 
quality.
    So haveing good finding aids is one of our major concerns. 
It is our thought--and you began to get at this when you asked 
about requests from OMB--that the Archives has at present 
included information on 10 percent of the records into this 
computerized finding aid and to get to 100 percent in just 7 
years, when you have a 30 percent backlog in basic description, 
there is going to need to be a real infusion of staff time. 
This is archival staff that have expertise in records that 
would be needed.
    So we have concerns about the state of that finding aid. To 
have the finding aid on-line would mean that researchers across 
the country would know whether it is worth their while to make 
the trip to Washington. So that is so important.
    Another aspect of access that I would like to mention is 
declassification. We are pleased that the Executive order has 
resulted in so many agencies declassifying records and 
transferring them to the National Archives. We know that in 
fiscal year 1997 there were 204 million records transferred. In 
fiscal year 1998 there were 193 million records. But when these 
records are declassified by an agency and sent to the National 
Archives, for a researcher to have access to them--and this is 
my issue, access to the records for researchers--the Archives 
has to process them. And to process them, they need to open 
each box, take out the record that still needs to be 
classified, put these in a secure area, put a marker in that 
file to show that a record has been removed, and then they need 
to prepare the description and develop the finding aid.
    So as successful as the Executive order is in having 
records declassified and transferred, we as users will not have 
access to these until they are processed. The Archives has put 
in the strategic plan for the year 2000 processing 75 million 
records which is a significant amount. But in that pipeline 
there are 200 million records. So here again we are concerned 
about the backlog that will be building up. As agencies do 
their work on the Executive order there will be more required 
for the National Archives.
    We love to hear these figures about agencies declassifying 
records, but we know that as researchers we still will not see 
those records until the Archives has been able to process them. 
And that is another very labor-intensive task that concerns us.
    A final point I would like to make on access deals with the 
National Historical Publications and Records Commission. I am 
glad that you have been able to spend some time today talking 
about the NHPRC because that is the part of the National 
Archives that deals with non-Federal records. Certainly for 
historians, we are interested in Federal records, but also non-
Federal records. The NHPRC has had a wonderful record over the 
years of leveraging private funds, 50 percent generally from 
private sources, and matching that and letting the donors of 
the private funds know that these are very good projects.
    I would like to note that in 1976 the appropriation for 
NHPRC for grants was $4 million. That was a long time ago, over 
20 years ago. Now they are up to $6 million. But this small 
agency that does this important work has really fallen so far 
behind from 1976 in being able to keep up with inflation and do 
the work. I would followup on the point that Archivist Carlin 
made regarding the grant applications.
    NHPRC staff works very differently from the NEH staff on 
working with applicants. NHPRC's staff are very knowledgeable. 
They have specialists in different areas like electronic 
records and research. In working with the applicants, if they 
know that according to their guidelines, and according to the 
amount of money there is, there is really no money for that 
project, they will convey that to the applicants. I do not 
think the number of applications is necessarily an indication 
of the appropriation level because we know from the state of 
State archives and the archives across the country that there 
is an enormous amount of work that needs to be done. We would 
like to encourage increased funding for NHPRC and a hard look 
at that small agency and what it is able to do.
    In closing, I would just say that the access issues are 
very varied. It is not just the delivery of materials to 
researchers in the research room but the describing of records, 
the processing of records that have been declassified, and then 
through grants to NHPRC made available for research. So we are 
hopeful that the Archives can have some increased staff to deal 
with these very severe backlogs.
    Thank you.
    [The prepared statement of Ms. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.067
    
    [GRAPHIC] [TIFF OMITTED] T4651.068
    
    [GRAPHIC] [TIFF OMITTED] T4651.069
    
    Mr. Horn. Thank you. You have made some good suggestions.
    We now have Dr. Stanley Katz, vice president for research, 
American Historical Association.
    Mr. Katz. Thank you very much, Mr. Chairman. It is a 
pleasure to be here. I can be very brief, I think.
    I would also like to begin by thanking you and the 
subcommittee for undertaking these hearings. They are 
enormously important to all of us who are concerned about the 
National Archives. I would additionally like to thank Governor 
Carlin and his staff. They have an almost impossible task, a 
huge number of records, technological problems that now exist, 
declassification--it is a daunting challenge. Over the last few 
years, since Governor Carlin has been there, there have been 
noticeable improvements at the Archives and we are very 
grateful for that.
    The one thing I wanted to address myself to is the question 
of the revolving fund, the reimbursable fund. Governor Carlin 
has spoken to that earlier and we think we do understand the 
general intention and value the intention of the Archives in 
this new project. We can understand why it comes about. It 
seems attractive as a way to relieve the budget of the National 
Archives. But we have concerns about whether it could really 
work in the way that the Archives hopes it will work.
    The simple argument is that we are concerned whether it is 
consistent with what we take to be general inclination of human 
nature. We think that there will be a temptation on the part of 
agencies working within or without the rules to reduce the 
number of materials they actually have to pay for in order to 
store. It seems reasonable to expect that a rational actor 
would look for such strategies.
    And while we do appreciate that there are going to be 
undertakings required by the agencies that they or private 
vendors will comply with NARA's standards, we are not sure that 
there is any adequate way of enforcing those guidelines. 
Indeed, we think that the problem of the Archives for a long 
time has been that Congress has never given it very effective 
enforcement mechanisms. This is another area that is not the 
fault of the Archives, but is the fault of the legal structure 
under which they work.
    We value Governor Carlin's commitment to effective records 
management and to the maintenance of records storage standards. 
But it is this question of enforcement that we worry about. So 
we hope that in the quarterly reports you are requiring now 
some thought can be given to the kinds of information you could 
request that would enable both NARA and the oversight committee 
to make some judgments about what is actually going on.
    For instance, it would be useful to have the estimates of 
both NARA and the agencies as to how many cubic feet of 
materials they actually have. It would be very good, from our 
point of view, to have the baseline study to know what is 
actually out there--or as nearly as possible what is out there.
    I am sure there are other things. I am not an archivist 
myself. I am sure there is other technical information that 
could be provided and we hope that you would look into that. 
Our concern is that records be neither destroyed nor neglected 
for fear that agency budgets will suffer.
    I would like to close by simply saying that I think there 
are some interesting examples out there of what has happened in 
other countries. I visited New Zealand 5 or 6 years ago. At the 
time they had privatized their government. I spent a day at 
their national archives. The archivist was very concerned--
every agency was going on a pay-your-own-way basis--and she 
said, ``We don't have much to sell.'' I think NARA is in that 
situation here.
    I hope that in trying to make it possible for NARA to use 
the moneys it does have better, that we are not going to 
endanger Federal records.
    Thank you very much.
    [The prepared statement of Mr. Katz follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.070
    
    [GRAPHIC] [TIFF OMITTED] T4651.071
    
    Mr. Horn. You are quite welcome.
    We face a situation here where we have a 15-minute vote 
followed by a 5-minute vote. So before we hear Mr. Hickerson--
it is going to take at least 20 minutes to 30 minutes--if you 
don't mind, we will try to reassemble here at 12:40 or so, 
which would give you a chance to eat a swift lunch in the 
gourmet Rayburn cafeteria, which is right below us on the 
basement floor.
    I regret that we have several votes over there, so we must 
recess this now and be back at roughly 12:40, I think.
    [Recess.]
    Mr. Horn. We will hear Mr. Hickerson, then we will have a 
dialog.
    Mr. Hickerson. Thank you very much, Congressman Horn.
    First I want to say what an honor it is for me to be able 
to participate in these hearings on the critical issues and the 
success of the National Archives and Records Administration.
    While, as you have alluded to, in the United States the 
responsibility of maintaining the archival record is broadly 
distributed among State and municipal archives, university, 
corporate, and religious repositories, research libraries, and 
historical societies and museums, no institution other than the 
National Archives is so central and fundamental to the rights 
of every citizen and to the process of democratic governance. 
So it is a pleasure for me to be able to participate here.
    My professional background includes 30 years of active 
involvement in archival practice as well as my extensive 
leadership in the archival profession, including my current 
services as president of the Society of American Archivists, 
and also my extensive service at Cornell University both in the 
area of archival and rare book and digital collection 
management and in information technology management generally. 
I am also here as a citizen of the United States.
    I could say a great deal about the profession, but I will 
jump to those issues that you specifically asked me to address, 
which are electronic records and the application of new 
technologies.
    I must start out by saying that I think Governor Carlin has 
done a great deal for the improvement of the National Archives' 
program during his time administering this program. I, however, 
am not quite as optimistic regarding the state of electronic 
records today. I think we do have a crisis. I refer to it as 
the Y2K that will not go away next year or the next or the 
next.
    In 1990, the House Committee on Government Operations 
issued a report called ``Taking a Byte Out of History: The 
Archival Preservation of Federal Computer Records''. In that 
report, they outlined the many difficulties inherent in the 
selection, maintenance, and use of records in electronic form.
    Unfortunately, while that report offered a very perceptive 
picture of the crisis of the moment, it was not an action-
oriented document. No new research was funded. No new programs 
were put in place. So we do not yet have a scaleable working 
model of a system for realistically addressing these issues.
    Although NARA has not solved this issue, there are a whole 
lot of us that have failed. First off, the technology industry 
has not helped us in this area. It has not been in their best 
interest to stress the impermanence of digital records. So it 
is not surprising that they have not been out there on the 
front line. They periodically call attention to the media and 
the permanence of that media, but as Mr. Stevens alluded to, 
that is not the primary issue in being able to maintain access 
to records over time.
    There is relatively little Government-funded research 
addressing this issue. Specific examples include the $24 
million that the National Science Foundation and other agencies 
gave out 4 years ago in the National Digital Library 
Initiative, phase one process. None of the six funded projects 
explicitly addressed the preservation of those electronic 
records. In the latest round for DLI-2, the National Endowment 
for the Humanities and the Library of Congress played a more 
active role in the process and stressed those issues, but 
nonetheless, out of 33 funded projects there were only two that 
explicitly focus on long-term access and preservation.
    I would like to read the comments William Ferris made in 
talking about the Cornell project. He said, ``NEH, the National 
Science Foundation, and other Federal agencies have begun the 
process by funding a pioneering, $2.3 million preservation 
project at Cornell University. This project will develop a 
standard way of organizing computerized collections, preventing 
data loss in these collections by alerting managers to the 
periodic need to upgrade ageing CD-ROMs and tapes, and making 
the collections fully accessible on the Internet. All Americans 
will benefit because the project will ensure that computerized 
materials important for the study of America will be preserved 
and accessible for generations to come.''
    While I appreciate Bill Ferris' kind and generous words of 
confidence, Cornell's project will not save the day. It will 
only contribute to a process that needs many other 
participants. Additionally he described it as a ``pioneering'' 
project. That is true, but it should not be. We are all behind 
the curve on this issue. We are probably as much as a decade 
behind where we should be at this point in time.
    Nor in the corporate sector has a great deal of progress 
been made in spite of the obvious permeation of this need 
across the entire spectrum of corporate and business operation. 
I think one of the reasons for that is that corporate 
archivists have often been responsible for paper records, but 
systems professionals have been the ones responsible for 
electronic records. They have not had an archival perspective 
on their job. The result has been that when we moved to an 
environment in which almost all records are generated in 
electronic form--or a large segment thereof--we do not have an 
archival perspective or incorporate archival value into the 
process.
    I can see a 500,000-person sub-industry developing around 
this very issue in the next 10 years.
    So this does suggest that in spite of real headway NARA is 
making at this point in time--particularly through the San 
Diego Supercomputer Project--that we are just now beginning. I 
wish we had been here in 1992 instead of 1999.
    I would like to add one other comment on technological 
issues but let me jump back and say just one thing on the 2000 
census issue. For me, this is an indication that the 
preservation of records is not just a technology issue. The 
issue is: How will the users be able to use that information? 
So we have social, technological, and economic issues combined 
in the decisions we are making today. We have to have some 
working models in place that actually provide usable records 
for the user for us to guide us in making the technological 
decisions.
    I apologize for the digression, but I think it is an 
important one.
    I will conclude my comments by saying that I think that 
more of the information from the National Archives that is in 
existing paper and image form should be made available 
digitally. I know that at this point in time Governor Carlin 
has chosen to focus a good deal of resources on the electronic 
records issue. However, I think the American public and the 
global public expects to have access to significant portions of 
the archival record in the classrooms, in the lecture halls, in 
the libraries, offices, homes, and in the wireless generation, 
every place.
    This relates to your reference to cooperation with the 
Library of Congress. Perhaps in this process, the National 
Archives might work in explicit cooperation with the Library of 
Congress or with university repositories or State repositories, 
using common systems for distributing access to digital 
information.
    I have extended beyond my time, I suspect, so I will wrap 
up by saying that I greatly appreciated the cooperation that 
Governor Carlin has initiated with the leadership of the 
Society of American Archivists. We have never had such an 
effective and synergistic relationship. I personally thank him 
a good deal for that.
    Thank you.
    [The prepared statement of Mr. Hickerson follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.072
    
    [GRAPHIC] [TIFF OMITTED] T4651.073
    
    [GRAPHIC] [TIFF OMITTED] T4651.074
    
    [GRAPHIC] [TIFF OMITTED] T4651.075
    
    [GRAPHIC] [TIFF OMITTED] T4651.076
    
    [GRAPHIC] [TIFF OMITTED] T4651.077
    
    [GRAPHIC] [TIFF OMITTED] T4651.078
    
    [GRAPHIC] [TIFF OMITTED] T4651.079
    
    [GRAPHIC] [TIFF OMITTED] T4651.080
    
    [GRAPHIC] [TIFF OMITTED] T4651.081
    
    Mr. Horn. Well, we thank you. That is a very worthwhile 
presentation.
    Governor, you have heard the testimony here. Is there 
anything you would like to say to some of these questions that 
have been raised? I am particularly interested in what your 
person power projections are in terms of getting the 
descriptors that Ms. Miller mentioned and the degree to which 
scanning technology can help you in getting the right 
descriptors.
    Mr. Carlin. As I said earlier in regards to populating the 
catalog and carrying out what Ms. Miller is very interested 
in--as well as us--I cannot say today what that might mean from 
a resource perspective. I always believe in maximizing existing 
resources first rather than making the first task coming to you 
and asking for more. We have done a lot of work and have a lot 
of people work in this area in what is referred to as the old 
way. We are converting to a new way.
    We have just hired three data standards experts staff to 
come on and help us. We want to really improve our descriptive 
standards in such a way that there is uniformity. As you go 
electronic, you no longer can have differences. So there is a 
lot of basic work that needs to be done before we would be in a 
position to say that we need more help.
    I can assure you--just as I did when I was sworn in as 
Archivist--I would not hesitate to come and ask for help when I 
felt like it was legitimately needed.
    On the second issue you raised, as far as scanning, we have 
taken a different approach than the Library of Congress. Our 
focus has been to scan and digitize a cross-section of very 
valuable, often requested records. The current project, which 
we completed in the early part of this calendar year, scanned 
and digitized and put up about 125,000 documents.
    We intend to then focus, as we are now, on the catalog, 
which would be a total comprehensive catalog. We would then 
link to these digitized examples so that researchers could see 
at least a sample of what they might be able to work with if 
they were to work directly with the records. As far as 
expanding beyond that, our philosophy is that given focused 
interest on highly used records, that we will explore further 
scanning digitization if we can also find the resources--or 
know where the resources are going to be--to maintain that 
effort.
    Our experience, as well as looking at other research, tells 
us that the initial cost of going through the process of 
selecting, scanning, digitizing, and putting up on the Internet 
an existing non-digital record--but getting it in the digital 
form--the cost of maintaining that will almost duplicate the 
initial cost every 10 years. That is a scary challenge, which 
has led us to decide that if we are going to put more up, we 
are going to have the maintenance endowed up front.
    If someone comes with an idea of private support, it will 
not be just to do the first effort, but to maintain it. I know 
from experience the excitement of getting up some wonderful 
collection, which may raise private dollars, when you talk 
about maintaining that collection, there will not be quite the 
excitement because there will not be a press release or a news 
conference announcing that we got the resource to keep it up. 
So we have taken a more conservative approach out of fear that 
we could get to the point where we wouldn't be able to sustain 
what we put up.
    Now born digital is a whole different ball game. But what 
we are really talking about here is the non-born digital that 
requires extensive work and expense over time to accommodate 
what is--I agree 100 percent--there is a great deal of interest 
and demand out there. But I also want to respond in a realistic 
and appropriate way and not get ourselves into a commitment we 
cannot sustain.
    Mr. Horn. Any reaction by members of the panel?
    Mr. Hickerson. I have said this in conversation with John 
Carlin. I think that an agency with the role of the National 
Archives cannot afford not to make material available via 
digital networks. I agree that it is an expensive process. 
However, I think we really have to accept that the 21st century 
is a very different world than the 20th was and that there will 
be an expectation that such materials--or certain small 
portions, perhaps statistically small portions of them--will be 
made available. And there is such potential for remarkable use 
out there in that form. I think it is one of those things that 
you cannot afford not to do.
    I think the transition--and I can speak to Cornell 
University's transition in moving from a library of 6 million 
books and 40,000 cubic feet of records to a repository also 
including 2,000 electronic resources and 2 million images 
accessible in networked fashion--moving the money as well as 
the conceptual thinking of the staff and the institutional 
mandate--to incorporate a very different view of the way people 
use information today is a traumatic effort.
    Mr. Horn. We have to educate the user as well as the 
Archivist?
    Mr. Hickerson. Yes, indeed.
    Mr. Horn. On the user and the need for the Archivist, what 
is your impression--since you are president of the Society of 
American Archivists--as to how we educate and train archivists? 
Is it simply going to library school and then getting what the 
doctors might call a residency in a good archive or the 
National Archives? And do we have people coming along to fill 
the bill in this area?
    Mr. Hickerson. I do not think we have enough people coming 
along to fill the bill. I had a discussion the day before 
yesterday with the executive director of the Council on Library 
and Information Resources about forming a panel to look at the 
development of a new generation of archivists and librarians 
and what kind of educational components will have to develop to 
meet that need.
    There are now masters in archival science programs as well 
as library science programs that have archival concentrations. 
My sense is that in terms of the need that we may have over the 
next 10 to 20 years--and certainly a lot of the career surveys 
agree with me on this--is that we will not produce enough 
people via that avenue. The Society continues as it has since 
the 1980's--conducting workshops on electronic records. Many of 
those workshops were staffed by people from NARA. But we have 
just created a distance learning workshop on electronic 
records. It has been so oversubscribed that we are already 
booking people for next year.
    So I do not have a good answer to your question except to 
acknowledge that we really have to do some things differently.
    Mr. Horn. Let's get back a minute to the scanning devices 
that can be used.
    Where are we in the evolution of computing and what kind of 
scanning devices would be helpful? Does the National Archives 
now have them?
    Mr. Hickerson. As Governor Carlin notes--and I do not want 
to answer every question----
    Mr. Horn. No, we are moving around.
    Mr. Hickerson. It can be an expensive process. At Cornell 
we have experimented with some fairly high-speed flat bed 
scanning where you just put it down and the machine 
automatically adjusts to the conversion requirements. You can 
move it through at a fairly fast rate. On the other hand, we 
also do art work in which we use a digital camera that in full 
scale production runs about 70 documents a day, 70 pieces of 
art work.
    So it varies greatly. The technology has improved and the 
costs are coming down significantly from where they were.
    On the other hand, we have the same preservation problems 
regarding these digital images that we do for the born digital 
records in that we do need to have migration paths for this 
information also.
    At Cornell, we have sought to develop a larger vendor 
industry by doing less of the work in-house and putting out 
very specific standards, projects, and we hope--as we did with 
high-level preservation microfilming--to generate a small 
industry around the need to do this scanning. We have had some 
very significant success in lowering the per image cost as a 
result of those efforts.
    Mr. Horn. Mr. Stevens, are any of the people in GAO looking 
at the technical side of what might happen in an archive, be it 
State or Federal?
    Mr. Stevens. No, they are not, Mr. Chairman.
    Ms. Miller. On the question of cost, I wanted to add that 
historians like to look at a whole series of records. So when 
we do research, we would want to look at a whole box. 
Frequently, when the scanning occurs, it is only of selecting 
particular documents. Then that alerts historians so that they 
are aware of those selected documents and then historians want 
to go to the archives to see all the records in the box 
surrounding that particular record.
    But the National Archives estimated--I heard this at one of 
their presentations last week--that it costs about $15 per page 
to digitize, select, index, and handle all that is needed for 
every page. If you go back to that image I used of a shelf of 
650 miles, and if you think of 2,000 pages in a foot, I figured 
that at $15 per page, that is $102 trillion to scan the 
holdings of the Archives. That is totally out of the question. 
And even if the price comes down from $15 to $1, you are still 
talking about almost several trillion.
    So I think the volume of records in the Archives is so 
enormous that the scanning will be for very select documents 
and will probably be used in teaching, but not by college 
professors who are doing research, who will really need to see 
a whole collection. We are still putting our priority on the 
finding aids. Just to have a comprehensive catalog of finding 
aids on-line would be a wonderful first step.
    Mr. Horn. Mr. Hickerson, is the high-speed computer at 
Cornell willing to tie into the National Archives and run a 
deck of those letters through and scan and do that? What kind 
of incentive would it take to get you to do that?
    Mr. Hickerson. I think there really are opportunities for 
cooperative projects. I certainly agree with Page Miller that 
the expenses of a comprehensive conversion are far beyond 
anything I could imagine.
    But there are diverse opportunities to bring materials 
together from multiple repositories in digital form that cannot 
be seen at any one repository together and these are projects 
in which we would work with the National Archives--I know in 
the case of records of Japanese-American relocation camps, both 
Cornell and the National Archives and UCLA have significant 
holdings. Wouldn't it be wonderful--and these are very heavily 
used items if those could be united in a virtual collection in 
a way that no single user could access them at their physical 
locations?
    We would be very open to such projects. We have contractual 
relationships with the Library of Congress to make material 
converted at Cornell available through American Memory and 
would be pleased to look at similar partnerships with the 
National Archives.
    Mr. Horn. Dr. Katz, you had a comment?
    Mr. Katz. I was actually going to followup on this.
    I think we all agree that is inconceivable to get the whole 
corpus up at any time, but it doesn't need to be because not 
all documents are created equal. There are ways of selecting 
and choices can be made. I think what has just been said is the 
key, and that is collaboration. Too often--and I think it has 
been true of LC in the past--individual institutional decisions 
have been made on what to digitize. But what we need to do with 
limited resources is to build coalitions--public-private 
coalitions--to make some determinations, depending on the 
ultimate use of those collections. There have been some 
attempts at that. The Digital Library Federation now is one, a 
private sector mechanism to do that.
    That is where I think cooperation with NARA is going to be 
absolutely essential because it is inconceivable to do the 
whole thing.
    Mr. Horn. Let me just get to a couple of things that have 
come out in the testimony.
    The year 2000 performance plan, as we noted earlier, 
projected that the National Archives will convert 10 percent of 
existing records, series descriptions, or finding aids to an 
on-line archival research catalog. What we asked earlier was, 
Do you believe this is a realistic goal? Do you believe that 
the target for 100 percent completion by 2007 is a realistic 
timeframe?
    Obviously, I think the Archivist thinks it is.
    Mr. Carlin. I think the 2007--I certainly do not intend to 
give away that goal. The 2000 goal, as this year proceeds, may 
look less and less realistic as we try to finalize that first 
step. But the value of that catalog is heavily dependent upon 
getting it fully populated. We are well aware of that and see 
it as a huge achievement that we have to focus on. It is 
important to researchers and important to the mission we have.
    Mr. Horn. Is there a real need for training your current 
archival staff because they really might not have been involved 
that much in technology? To what degree do you face that 
situation?
    Mr. Carlin. There will be the need to train so that we are 
proceeding in a way that is efficient, uniform, that fits the 
specific data elements that need to go in, et cetera. That is 
why we are trying to bring some agency-wide focus to this, not 
letting it be done all over the agency in whatever way is 
customary for them to deal with it, but to make it uniform. It 
is one of the lessons you learn quickly in the electronic age. 
You must have standards. That machine cannot quite negotiate 
two different approaches to the same task.
    We are working very hard to get those standards established 
and working very hard, as a followup to that, to make sure that 
we train the staff across the agency while doing the populating 
description work.
    Mr. Horn. What else could we do in terms of private 
corporations? It seems to me in business archives there would 
be a market out there in scanning business archives--especially 
when they get sued--to go through their papers with key word 
indices to see where these papers are and so forth. Is there 
any hope of collaboration with American business in some of 
this?
    Mr. Carlin. Yes, there is. In fact, there is existing today 
a considerable amount of collaboration. The focus to this point 
has been primarily with the pharmaceutical industry, which has 
some of the same concerns we have in terms of long-term 
preservation of this new medium because of their liabilities, 
their focus on patents, and so forth with the products they 
produce and market.
    So they are a player at the table in one of our major 
research projects today. They have been. That project started 
about 18 months ago.
    Mr. Horn. I am interested in the technical side. I do not 
know if we have enough experts here on that, but how is that 
coming? Let's face it, the more you get out, the more the price 
per unit goes down. Where are we working on this? Cornell? 
Stanford? Berkeley? Are they all involved?
    Mr. Hickerson. There are many universities involved in 
applicable research. Some of the important work focuses on the 
security, accuracy, authenticity, and reliability of systems, 
which applies broadly both to our defense capacity as well as 
other areas such as NASA's mandate.
    So a lot of diverse research is in progress. I am hopeful 
that we will turn seriously to the issue of preservation of 
electronic records in the research sector. This has previously 
not been seen as sexy or cutting edge research because it is 
not moving on beyond the next new technology; it is looking 
back.
    But I think we have moved to a point of awareness and soon 
we will see resources redirected--and it does apply to business 
just as much as it does to Government, and certainly to 
university administrations and everywhere else. I do expect 
that the technology industry will turn to this issue and devote 
a good deal of attention to it.
    Just a quick anecdote, I was speaking with a computer 
science professor--a respected individual named Ken Birman--and 
we were talking about this issue in a seminar setting. He said 
rather impassively, ``I think that technically and economically 
and organizationally we will get this solved by about 2015, and 
probably everything between 1995 and 2015 we will lose most of 
it. But that is a reasonable loss for a transformation of this 
size.''
    I said, ``Ken, I don't think society has given any 
indication it would find this a reasonable loss, but I can't 
guarantee you it won't happen.''
    So I think we will reach the point of successful 
management, but we need to reach it a little faster than we are 
moving right now.
    Mr. Horn. What do we know about the security of these 
records in a digital age and how they can be damaged? We all 
take our disks out at night so we don't have to redo everything 
we have done during the day. But beyond that, when you have 
documents that can be, I am sure, marred in some way by 
somebody that wants to make mischief--either a disgruntled 
employee or whatever it is, it happens in doctor's offices and 
hospitals when they want to get even--so we have all those 
dangers. How can we protect against it on vital records?
    Mr. Hickerson. As I said, a lot of research DARPA is 
funding concerns security issues for systems. But whether that 
applies to every individual user out there and when those tools 
will come into common availability--I certainly cannot speak to 
that. I see this as a crisis because we have made this 
transition to a largely electronic world without building very 
much of the human infrastructure that really guarantees its 
usability.
    Mr. Horn. Mr. Stevens, given your report, the National 
Archives' fiscal year 1999 performance plan indicates that the 
business process reengineering plan would be complete in 1999. 
However, the 2000 performance plan notes that the business 
process reengineering plan is scheduled for completion in 2000. 
What is involved in a business process reengineering effort in 
terms of the GAO? What do you feel on that?
    Mr. Stevens. There are many aspects to it, Mr. Chairman, 
and the archivist has described a number of them. I tend to 
separate it in two components. One is the internal and the 
other is the external.
    Internally, obviously the National Archives and Records 
Administration has agreed they will have work to do to figure 
out how it is going to interact with agencies. That means 
looking at the paper flow, policies, guidance, training, and 
that sort of thing. And that is not a misplaced emphasis.
    What struck us when looking at electronic records 
management as an issue as opposed to NARA as an agency was just 
how little information is available about what is going on in 
the places in the Government that really have primary line 
responsibility for managing electronic records at this point in 
time, and that is the agencies themselves. We were surprised at 
how little NARA really knew about that as well. They had 
recognized this issue in past years and I think quite sensibly 
had laid on the baseline where-are-we-now survey. We felt that 
the information coming out of that would be very valuable--not 
just for NARA's own purposes in framing its policies, guidance, 
paper flow, business process in general--but also for the 
agencies themselves and noted that in their strategic plan 
keeping up with the agencies was an integral element.
    So we were sorry not to see that information come 
available, at least for a couple more years. It is a matter of 
timing. I think they would agree that this needs to be done. We 
would like to see it done a little sooner, partly because our 
focus is a little more Government-wide, a little more issue-
oriented, and theirs is more agency-based.
    Mr. Horn. Do you think the National Archives' estimate that 
the process will take 18 months to 24 months is reasonable?
    Mr. Stevens. Given our experience in other agencies that 
are going through the Government Performance and Results Act, 
reexamination of their functions and processes, I would say 
that is certainly reasonable, maybe even optimistic. It is a 
complicated job for people to reexamine fundamentally what they 
are doing and how they are doing it.
    Mr. Horn. One of the things this subcommittee will be 
doing, once we get through this Y2K bit and have maybe a 
hearing on the retrospect of what went right or wrong, will be 
to look agency-by-agency--and obviously we want the General 
Accounting Office's help on this--to look at upgrading their 
computing capacity, because that has been one of the problems. 
Some agencies are three, four, or five generations behind. The 
Congress really needs to face up to that and move ahead on it.
    It seems to me that you can build into this the archival 
end at the other end of the process, and we ought to be 
thinking about that.
    Mr. Stevens. You should be able to do that. Right now, we 
just do not know what is happening. My suspicion is that 
nothing much is, but we cannot prove that.
    Mr. Horn. I think we will give the GAO 6 months to do one 
of its wonderful reports as a lead-off witness. So maybe we can 
work that out as to the questions that need to be asked. We 
welcome from all of you, also, What questions do we have to 
raise if we are going to make a rational decision in the 
executive branch, OMB, the President, and the Congress? That is 
where I am headed in terms of getting this Government up to 
speed in this technological age.
    Any comments any of you would like to make?
    We are going to wind this up, but we thank you for starving 
to death through the lunch hour.
    Anything else anybody would like to say for the good of the 
order?
    If not, just write us a note and we will put it in the 
record at this point, or if you do not want it in the record, 
you just want it for guidance for us, that is fine, too. We 
would love to have it.
    You are all wonderful people and we appreciate what you are 
doing. Governor, you are running a great institution there. 
Future generations will appreciate it, I hope, just as much as 
current generations. I thank you and your staff for coming.
    With that, I have the staff list as to who helped on this. 
J. Russell George, the chief counsel, is not here. He is over 
at the Pentagon going through their Y2K things. Matthew Ebert, 
to my left and your right, is the policy advisor who put this 
hearing together. Bonnie Heald, director of communications, 
professional staff member; Chip Ahlswede, the faithful clerk; 
and we have two great interns here, P.J. Caceres and Deborah 
Oppenheim. On the minority staff we have Trey Henderson, 
counsel; Jean Gosa, minority staff assistant.
    And we have Mel Jones, who is probably as glad as we are 
that this session is over. Thank you, Mel, for reporting these 
proceedings.
    With that, we are adjourned. Thank you very much.
    [Whereupon, at 1:26 p.m., the subcommittee was adjourned to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] T4651.082
    
                                   - 

</pre></body></html>
